<html>
<title> - OVERSIGHT OF THE SECRET SERVICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     OVERSIGHT OF THE SECRET SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 15, 2016

                               __________

                           Serial No. 114-168

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
 
 
 
             Available via the World Wide Web: http://www.fdsys.gov
                     
                                __________
                                
 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
26-170 PDF                  WASHINGTON : 2017                     
           
 ----------------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a> 
 
 
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
                        Michael Howell, Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 15, 2016................................     1

                               WITNESSES

Mr. Tom Dougherty, Chief Strategy Officer, U.S. Secret Service
    Oral Statement...............................................     9
    Written Statement............................................    12
Brigadier General Kevin Nally, Retired, Chief Information 
  Officer, U.S. Secret Service
    Oral Statement...............................................    19
The Hon. John Roth, Inspector General, U.S. Department of 
  Homeland Security
    Oral Statement...............................................    19
    Written Statement............................................    22
The Hon. Patrick P. O'Carroll, Jr., Executive Director, Federal 
  Law Enforcement Officers Association
    Oral Statement...............................................    36
    Written Statement............................................    38

                                APPENDIX

Hearing Follow-up Response submitted by Mr. Roth, Inspector 
  General, Department of Homeland Security.......................    76

 
                    OVERSIGHT OF THE SECRET SERVICE

                              ----------                              


                       Tuesday, November 15, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:44 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Duncan, Jordan, Walberg, 
Amash, Gosar, Gowdy, Massie, Meadows, Mulvaney, Buck, Blum, 
Hice, Carter, Grothman, Palmer, Cummings, Maloney, Norton, 
Clay, Lynch, Connolly, Lawrence, Lieu, Watson Coleman, 
Plaskett, Welch, and Lujan Grisham.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    My apologies for the delay. We had testimony I needed to 
give in the Natural Resources Committee, and I appreciate your 
patience.
    We have a very important hearing here. We've done a series 
of hearings on the Secret Service. And, first and foremost, let 
me thank the ranking member on the bipartisan way in which 
we've been moving forward dealing with this very sensitive 
subject.
    The Secret Service has not been subject to much oversight 
over the last few decades, but it is a vital part of the 
mission of the United States Congress, and I think it is a 
good, healthy thing for all of us to do.
    First and foremost, I want to congratulate the Secret 
Service for going through a very tough, rigorous, long campaign 
season with an immense amount of travel and work. And, by any 
account, Secret Service has had a good year. Everything from 
the election to the visit from the Pope, there are a host of 
things that the Secret Service has been called on to do--the 
United Nations. There's a lot of praise that is due to the men 
and women who are on the front lines.
    But we have to deal with some realities of things that 
we've pointed out over the last couple of years. And so this 
hearing is going to touch on a variety of topics, but, first 
and foremost, I want to start and end by thanking the men and 
women who are doing this hard work.
    By our estimation, almost every single agent in the Secret 
Service has performed overtime for which they have not been 
compensated. And I want those of you that are watching to 
digest this. We know the men and women are committed to this 
mission, but it is terribly unfair to not receive compensation 
for doing so. This is not a volunteer job. And when you take 
yourself and put your life on the line to protect others and 
protect this Nation, when you're away from your family or just 
away, away, away, you should get compensated for that, and we 
need to address that.
    We have other problems that need to be fixed. And I know 
members on both sides of the aisle have questions about the 
mission of the Secret Service, because one of their prime 
missions is about cybersecurity. And there are, I think, very 
legitimate questions, I have deep questions, about the 
protective mission as well as the cyber mission, because it is 
taking the majority of the time to engage in the cyber mission. 
And we'll talk some more about that.
    And then one thing that is terribly frustrating and we will 
not tolerate on the Oversight and Government Reform Committee 
and the Congress, and that is the lack of cooperation in doing 
our own investigation and working with the Secret Service. You 
do not get to hide things. That is not an option for the Secret 
Service. And yet we continue to deal with this, and we've 
issued subpoenas that have not been responded to, and that is 
just simply not acceptable.
    But let's go through some of the details. According to data 
provided to the committee, 1,077 employees, 90 percent of whom 
are agents, worked unpaid overtime hours in support of the 
Presidential election in 2016.
    Now, there are many law enforcement agencies that enforce 
caps on paid overtime for their hardworking personnel, and I am 
not suggesting today that these caps should be totally 
disregarded or permanently lifted for the Secret Service. You 
know, we've had a number of hearings, we had a panel that was 
assembled, outside individuals who came together and talked 
about the improper staffing levels that have led to this.
    The Secret Service at its peak had a staffing level of 
7,024 employees. This was in 2011. That number declined every 
year until the beginning of this year, when the agency had 
6,289 employees. The staffing numbers are beginning to improve 
and are now at 6,507 employees, with 3,300 special agents, 
1,400 Uniformed Division officers, and roughly 1,700 
administrative and technical personnel.
    But, by all accounts, you're some 500 to 1,000 people short 
of where you should be. And you can't just go grab somebody, 
hand them a gun, and say, hey, go protect the President or go 
protect the White House. You can't do that. I recognize that it 
is difficult to vet, train, and get somebody all the way 
through the process without them dropping out. We want the best 
of the best. But there is a problem that snowballs, in that 
when you don't have the proper staffing levels, you are leaning 
on people to go through some tremendous efforts.
    We have some stories that were provided to us that I want 
to read some excerpts of, okay? These are agents serving in 
various parts of the country, and these are quotes.
    ``During this year, I've missed holidays, birthdays, and 
other life events. Often, I've been back off my campaign 
rotation, I've been grabbed for in-town protective assignments 
or out-of-town assignments for POTUS or VPOTUS. In total, I've 
been out of the district and away from home for close to 8 
months this year.''
    An agent in Chicago: ``During this campaign, by the end of 
the year, I will have exceeded my pay cap by close to $25,000. 
I've been on almost every campaign rotation and back-to-back 
travel assignments. The pace has been terrible. I can't even 
remember the last time I've been in the office for 2 days in a 
row. This has been ridiculous. It's far worse than the 2012 
campaign. Thankfully, I'm not married, but if I was, I'd 
probably be divorced by now.''
    Here's another agent: ``I've been in the Secret Service for 
almost 25 years and been involved in every campaign since I've 
been on the job. We thought the 2000 campaign was the worst, 
but this makes all the past campaigns pale in comparison. I've 
been one of the detail leaders since beginning this campaign, 
and I'm currently over $60,000 over my pay cap. This is on top 
of the normal amount of salary I don't receive due to the pay 
cap, which I expect to lose money on during the non-campaign 
year. This has been rubbing salt in the wound.
    ``We give all we have, our lives completely disrupted, and 
we don't see any benefit from the sacrifice. We're losing 
people. Recruiting has been tough to do, as not many want to do 
this job. And we are doing nothing to incentivize people to 
apply or to stay. I have colleagues that were on the same level 
that have left the job for private-sector opportunities. This 
never happened in the past, and it should be a wake-up call to 
headquarters and the Hill about the cost-and-benefit analysis. 
Making the Service does nothing to combat the sentiment that 
sacrifice is just not worth it.''
    Another agent: ``My wife keeps asking me what is the 
benefit, and I don't have an answer.''
    Another agent: ``We are busier than ever. Staffing has 
become rolling people from one assignment to another with no 
break. We're all at near our pay cap, which adds to the 
frustration. I've had things in my house I can't fix I've had 
to pay someone else to do. I've had an increase in my lawn 
service contract to do things I would normally do. My children 
don't see me.''
    Another agent: ``I'm $25,000 over my pay cap. My average 
workweek is 90 hours. I'm away from my family for weeks at a 
time, missing out on various functions for school-age children. 
My wife feels as though she's a single mother, and there's no 
financial benefit. I'm not getting paid.''
    Another agent: ``Every hour of OT worked is not paid. I 
don't get paid for the work that I do.''
    Another agent: ``I average 43 days before I get a day 
off.''
    It goes on and on. My guess is if we sat down with every 
agent, they've got the same story. And that has to change. 
That's a management problem. That's not an agent in the field's 
problem; that is a management problem.
    And one of the things that we see is you can't even tell us 
how many hours they worked and how much they are due in 
overtime. Because last time we talked, you didn't even have a 
system to track this sort of thing.
    So we have got to solve this. I don't want to create a 
long-term incentive and say, hey, we're just going to pay this 
in perpetuity forever. You've got to have the tools to actually 
solve it. It is dangerous to the President, the Vice President, 
the incoming President, their family, to have somebody who is 
working a 90-hour week, who's tired, exhausted--and not getting 
paid? That's not a formula for success, ladies and gentlemen. 
That has to be solved.
    The Secret Service has developed and begun implementing a 
human capital plan that will increase its staffing level to 
between 8,000 and 9,000 employees by the next Presidential 
election in 2020. So we have 6,500 now, but trying to get to 
8,000 to 9,000 people, and we want to hear about how you're 
going to do this.
    In the meantime, I do plan to introduce legislation--in 
fact, I did it last night--that will raise the cap for the 2016 
election cycle, providing back pay for uncompensated overtime. 
To the men and women who are watching this, there is relief if 
we can get this bill passed. And we want to make sure that you 
get paid for your overtime. I don't know that we can pay for 
every single hour of every single thing. I don't know that the 
Secret Service can even track it. But that is what we're trying 
to do.
    The Secret Service staffing problems are not caused solely 
by funding issues. In fact, it should be noted that Congress 
has enacted more funding than the preceding year every single 
year in a row, with the exception of the year 2006--or since 
2006. With one exception, every year, Secret Service budget has 
gone up, but the staffing levels have gone down. What does that 
tell you? It tells you that we're not taking care of the 
staffing levels that should be there, and that is on the Secret 
Service itself.
    Concerns also remain as Secret Service employees are 
burdened by their increasing nonessential investigative and 
cyber-related missions that may distract from the core mission 
of protecting the President and other protectees.
    If you average it out--and it's not true for every person, 
but if you take the 60,000 feet and you average it out, agents 
spend about one-third of their time in protection-related 
activities during non-Presidential election years. Protection-
related activities increase to about half their time during 
Presidential election times, which begs the question: Could we, 
with the existing force, if they were just doing the protective 
mission, which is a massive important mission to the United 
States, could they cover all of this without having to have 90-
hour to 100-hour workweeks? The answer is, yes, we think we 
could actually get there.
    If the Secret Service focused all of its resources on the 
protective mission, then the overtime issue before us may not 
be there at all. I will continue to work with members on both 
sides of the aisle to figure out how we actually do this.
    Casting further doubt on the Secret Service maintaining two 
separate and distinct missions are issues raised by the 
Inspector General report critical of the Secret Service's 
handling of its own information technology systems. The DHS 
Inspector General, who is here with us today, recently found 
that the Secret Service's information technology systems, which 
contain a wealth of extremely sensitive information, are, 
quote, ``vulnerable to unauthorized access and disclosure,'' 
end quote.
    A DHS OIG employee who met with our staff referred to the 
Secret Service IT systems as the worst in all of Homeland 
Security. And yet they're supposed to be the ones protecting 
the Nation from everything that we do. And a lot of people do a 
lot of good work, but that mission is growing and expanding and 
it's going global. It's already gone global. It went global a 
long time ago.
    The employee indicated the audit should have only taken a 
few days but it took months because of how unsecure the systems 
were and because the Secret Service lacked basic information 
technology security knowledge.
    Matters are made worse by the troubling culture of 
mishandling sensitive information. Additionally, when meeting 
with Homeland Security and Secret Service officials, we learned 
the improper access and disclosure of sensitive information was 
so commonplace that Secret Service employees didn't even know 
it was against the rules to do so.
    This is how arcane the Secret Service process is. 
Applicants must email sensitive background forms that the 
Secret Service then prints, stores, and then manually re-inputs 
them into the system. Do you know how many man-hours are wasted 
on that, doing that in that system? We have asked the Inspector 
General to investigate.
    If the Secret Service is committed to reform, then the 
agency must also be committed to ensuring top leadership is 
above reproach and worthy of respect from those that they lead. 
They are one of the most revered law enforcement agencies on 
the planet, but after we saw Cartagena, Secret Service 
employees believed there was a double standard for top 
leadership, that depending on who you knew and what your 
position was, you could be promoted despite misconduct. It is 
imperative that this belief be completely wiped clean in order 
to truly transform the agency.
    Currently, the Secret Service is refusing to imply with the 
duly-issued subpoena. The documents in question contain serious 
misconduct at the senior-most levels of the agency. On May 20, 
we requested information related to any past misconduct 
committed or alleged by senior officials at the GS-15 level or 
above. On September 2, given their nonresponse, we issued a 
subpoena for those documents. Today, the production is still 
not complete.
    We did receive a trove of documents late last night--we 
shouldn't have to have a hearing to compel that--but the names 
have been redacted. The names have been redacted. We can't 
conduct this. We can't do our proper oversight with all the 
redactions. On this one page here, I can show you, there's 22 
redactions on one page of duly-issued-subpoenaed material.
    The committee understands there are more than 40--40--
officials, of roughly a universe of about 300, there are 
roughly 40 individuals out of 300 at the GS-15 level or above, 
including a recently promoted assistant director who had 
misconduct in their personnel record, either alleged or proven.
    Based on materials the committee has reviewed, the 
misconduct in question includes transmitting hardcore 
pornography on government computers, racially charged messages, 
visiting strip clubs during working hours using government 
vehicles, impersonating an FBI agent or DEA agent, improper 
relationships within the workforce, domestic violence, and 
sexist conduct.
    The committee has long held that senior leaders must be 
held to the same standard as the rank-and-file employees.
    The reason this was highlighted is because, when given a 
survey, anonymous survey, the Secret Service employees told us 
only 22 percent--22 percent--of the Secret Service employees 
believed that senior leaders maintain high standards of honesty 
and integrity. Think about that. More than 79 percent of Secret 
Service employees don't believe that senior leaders act 
honestly and with integrity.
    Of course we're going to look into this. That's one of the 
most stunning numbers we've ever seen pop out at us on these 
surveys. And there's a reason we do these surveys, is so we can 
highlight this. But we don't know if you've cleaned this up. We 
don't know if you've helped solve this. And it's not good 
enough to just say, ``Oh, yeah, we're addressing it,'' when you 
won't share the information with the committee.
    There have been some positive reforms. This committee's 
bipartisan December 15 report and the December 2014 Blue Ribbon 
Panel report made extensive recommendations for reform. The 
Secret Service has taken steps to implement these 
recommendations and begun to correct its mistakes.
    But until the Secret Service takes seriously the character 
of its own senior leadership, it cannot hope to recruit and 
retain the type of workforce it needs to regain its prestigious 
position as history has known. The committee is dedicated to 
reforming the agency to make sure it is as successful as 
possible and is a zero-fail mission.
    Again, we appreciate the good work of the men and women who 
have gone through a very rigorous campaign schedule. But that 
has not let up; they still have a lot of protection to do. And 
we thank them for that service.
    We will now recognize the ranking member.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I'm 
glad that we are having this hearing.
    To the men and women of the Secret Service, I too join the 
chairman in thanking you for all that you do in protecting the 
President and the other protectees and addressing issues that 
are very, very difficult.
    When you think about working and not being paid and, at the 
same time, having to go home to a family who has not been able 
to spend the time that they want to spend with you, and then 
when you look at your paycheck, you're not even compensated for 
that time. So I join the chairman with regard to trying to make 
sure that we retroactively raise the cap so that Secret Service 
agents, employees, might be properly compensated.
    Since the beginning of this Congress, I've joined with the 
chairman to conduct a comprehensive investigation of the Secret 
Service--the good, the bad, and the ugly. Working together, we 
issued a bipartisan report last year that documented the 
cultural problems in the agency and detailed specific incidents 
of abuse by agents who went astray.
    But we also did something else extremely important. We 
documented how staffing levels at the Secret Service dropped 
off a cliff after significant budget cuts were imposed by 
sequestration. Let me read to you what our report said, and I 
quote: ``The crisis began after 2011, when the number of 
employees began to decline sharply, and the decline continued 
across all categories of employment,'' end of quote.
    One of the top causes we identified was the, quote, 
``significant cuts imposed by the Budget Control Act of 2011,'' 
end of quote. That was the bipartisan, unanimous finding of 
this committee. Through sequestration, Republicans in Congress 
slashed the budget of the Secret Service, and we're still 
feeling the consequences of those budget cuts on the men and 
the women who devote their lives to protecting the President 
and many other officials.
    After recognizing this massive problem, we also proposed a 
bipartisan solution. In our bipartisan report, we made 29 joint 
recommendations, and one of them read as follows, and I quote: 
``Congress should ensure that Secret Service has sufficient 
funds to restore staffing to required levels, and the Secret 
Service should ensure that it has systems in place to achieve 
these goals.''
    Now, I agree with the chairman. It's one thing to deal with 
the staffing; it's another thing to make sure that all of the 
support systems are in place. There has been a lot of research 
done with regard to the Secret Service, a lot of 
recommendations, but we do have a duty to make sure that the 
Secret Service is carrying out those recommendations and 
carrying them out in a timely fashion.
    Unfortunately, the problem we now face is that some 
apparently feel that these words mean little, and they will not 
support additional funding, by the way, for the Secret Service 
beyond this year to increase staffing or even to keep the 
staffing they have.
    As we all know, 2016 has been a year of extraordinary 
demands and strain on the Secret Service. I thought the 
chairman did an excellent job of laying out some of those 
concerns. Recent reports indicate that more than 1,000 Secret 
Service agents--one-third of the agents--have worked so many 
hours that they are now maxed out of their overtime and salary 
and are prohibited by current law from receiving any additional 
overtime pay. Some agents started working overtime for free as 
early as June and are exceeding the pay cap by $50,000 or 
$60,000.
    But this happens every 4 years. Every Presidential campaign 
year--and we know this in advance--significant hours of 
overtime are required for the Republican and Democratic 
National Conventions and for around-the-clock protection of the 
Presidential candidates and their families. This year, the 
Secret Service had to provide security at two additional major 
events: the United Nations General Assembly and the Nuclear 
Security Summit.
    As our bipartisan report showed, Secret Service agents have 
been leaving at historic rates. One senior agent explained how 
agents had their lives, and I quote, ``completely disrupted and 
don't see any benefit from the sacrifice.'' That's a very sad 
commentary.
    And as the chairman stated when he talked about this 
person, he also said: ``We're losing people. Recruiting has 
been tough to do, as not many want to do this job, and we are 
doing nothing to incentivize people to apply or stay,'' end of 
quote.
    The men and women of the Secret Service put their lives on 
the line every day because they love our country. I have talked 
to Secret Service agents who have said to me that they're 
willing to take a bullet for the President--willing to take a 
bullet. And we ought to be able to compensate them.
    They endure high-stress, 16-hour workdays. They're away 
from their families for weeks at a time. They miss birthdays, 
holidays, anniversaries, and time with their children. That's 
time that they will never be able to recover. They make extreme 
sacrifices, and they should get paid for the time they work.
    How in the world can we expect to address the major 
recruitment and retention challenges at the Secret Service if 
we're not even paying them for the hours they serve? Raising 
the salary caps only for 2016 is not enough. This is not a new 
issue. It comes up every election cycle, and we need a 
permanent solution.
    For these reasons, I'm introducing a bill that would create 
a permanent fix by raising the annual pay cap for every 
Presidential campaign year. And the Secret Service need to know 
that in advance. They need to know that we've dealt with this 
and that they're going to be okay and their families are going 
to be okay. And if we want to address the issue of morale, I 
can see no better way to do that.
    So it is Congress' duty to consistently fund the Secret 
Service's most mission-critical areas. And we must take action, 
and we must take action now.
    Finally, I am very encouraged that the Secret Service has 
been making progress implementing our recommendations and those 
of the Protective Mission Panel. Just this morning, the 
Department of Homeland Security Inspector General issued a new 
report commending the Secret Service on the significant strides 
they have been making. However, the report warns that full 
implementation will, and I quote, ``depend heavily on adequate 
funding and staffing,'' end of quote.
    This is a warning for us here in this committee and every 
Member of Congress. I've often said that I want the Secret 
Service to be the elite among the elite. I want that reputation 
that the protective armor that they have cannot be pierced, 
because I think that that in and of itself, that reputation in 
and of itself, is a deterrent from anybody trying to do 
something to harm the President or the other officials.
    And so I urge my Republican colleagues to support my bill 
and to show the American people that this committee can do more 
than just talk, that we can act to address the problems swiftly 
and provide a permanent solution, but, more importantly, to say 
to the Secret Service that we appreciate you and we want to 
make sure that you receive every penny that you have earned.
    With that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    We'll now recognize our panel of witnesses. We're pleased 
to welcome Mr. Tom Dougherty, Chief Strategy Officer at the 
United States Secret Service; Brigadier General Kevin Nally, 
retired, Chief Information Officer at the United States Secret 
Service; the Honorable John Roth, Inspector General, the 
Department of Homeland Security; and the Honorable Patrick 
O'Carroll, executive director of the Federal Law Enforcement 
Officers Association.
    Gentlemen, we thank you for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. If you will please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for discussion, we'd appreciate it 
if you would limit your oral testimony to 5 minutes. Your 
entire written record will be made part of the record.
    Mr. Dougherty, you're now recognized for 5 minutes. And, 
please, pull that microphone up close and make sure it's on. 
Thank you very much.

                       WITNESS STATEMENTS

                   STATEMENT OF TOM DOUGHERTY

    Mr. Dougherty. Thank you, Chairman Chaffetz, Ranking Member 
Cummings.
    I apologize first. I'm under the burden of a cold, so I 
apologize for a little bit of the voice issue. But let me 
start.
    Good morning, Chairman Chaffetz, Ranking Member Cummings, 
and distinguished members of the committee. I am proud to 
appear before you today alongside Secret Service's Chief 
Information Officer, my colleague Kevin Nally, a recent 
acquisition by Secret Service, to discuss a broad range of 
ongoing reforms in betterment of the agency.
    It is our honor to represent the men and women of the 
Secret Service at the conclusion of the 2016 Presidential 
campaign. Through the exceptional commitment, dedication, and 
selfless sacrifices of our workforce, the Service has 
successfully performed one of its most important 
responsibilities to the Nation, that of protecting Presidential 
candidates and Presidential and Vice Presidential nominees.
    One week removed from the general election, we continue to 
look ahead as we prepare for the Presidential inaugural and 
beyond.
    As with the generations that preceded us, all of us, our 
more than 6,500 employees demonstrated a level of 
professionalism and commitment upon which the reputation of our 
agency has been built historically. I appreciate the 
opportunity to speak today about these accomplishments, as well 
as the challenges ahead and the efforts that the Director and 
the staff have undertaken to ensure that the Secret Service is 
an agency that does continuously improve.
    The agency began preparation and training for candidate 
operations in the summer of 2015--a long time ago now, it 
seems--at the direction of the Secretary of the Department of 
Homeland Security and, after consultation with the 
Congressional Advisory Committee, initiated protection of 
candidates in November of 2015.
    As part of our campaign efforts, we also provided security 
for three Presidential debates as well as one Vice Presidential 
debate.
    In the course of this election year, the Service 
coordinated security for over 2,500 candidate trips, during 
which approximately 4 million people went through magnetometer 
screening in order to protect the American political process.
    Protection is a collaborative effort, and we are fortunate 
to have the support of a number of partners over the past year. 
Particularly, we work with our DHS colleagues at Homeland 
Security Investigations--that's HSI--Transportation Security 
Administration, U.S. Customs and Border Protection, as well as 
State and local public safety agencies throughout the country 
to ensure protection for these candidates. And we thank them 
for their critical support. We could not do our job without 
State and local law enforcement.
    Amidst candidate operations, the agency coordinated five 
national special security events over this particular year--and 
then, of course, the Pope just prior to that time, as well. 
That's six.
    While Federal, State, and local partners from across the 
government supported these NSSEs, as envisioned in Presidential 
directives, I am proud to say that these events also 
demonstrated a tremendous unity of effort--or unity-of-
government effort within the Department.
    These NSSEs included the State of the Union, the 2016 
Nuclear Security Summit, the Republican and Democratic National 
Conventions, and, of course, the 71st United Nations General 
Assembly in New York.
    Beyond the operational achievements of the past year and a 
half, Director Clancy has rebuilt the Secret Service's command 
structure and implemented policies to increase transparency and 
communication between senior leaders, supervisors, and the rank 
and file across our agency. Many of these changes were 
recommendations made by the independent Protective Mission 
Panel as well as this committee.
    The work of the PMP led the Secret Service to examine how 
we lead the organization, how we train for and conduct 
operations, and how we engage with every member of the 
workforce.
    One year after the PMP issued this report, the Secret 
Service invited the panel members from the PMP back to our 
headquarters to meet with Director Clancy to discuss the 
progress we had made and to get their input, genuinely, to 
ensure that our actions and intended direction were consistent 
with the intent of their recommendations. Their positive 
response to our progress was encouraging. Our job is not 
finished, though, of course, with that.
    The DHS Office of Inspector General recently reviewed the 
Secret Service's progress in implementing the recommendations 
of the PMP. In its report, the OIG stated, ``The Secret Service 
has clearly taken the PMP's recommendations seriously, which it 
has demonstrated by making a number of significant changes.'' 
The DHS OIG went on to note that ``fully addressing some of the 
PMP recommendations will take considerable time. It is a 
sustained effort, funding and stakeholder support''--your 
support. We appreciate the OIG's assessment and concur with the 
five recommendations that he has put forward to us.
    In addition to Mr. Roth's report, we have actively sought 
assessments and feedback from external sources, among them, 
most recently, as published today, the National Academy of 
Public Administration, which helped us identify ways to build 
and complete additional actions related to both the PMP and 
also the HOGR report.
    The Secret Service is committed to a sustained, long-term 
effort of continual improvement. During our work to address the 
PMP recommendations, we have addressed concerns raised in the 
committee's report, which include changes in Secret Service 
leadership and the structure of our organization fundamentally, 
profoundly; hiring and retaining personnel; and the budgeting 
of our own mission needs to sustain the operations based on 
what it costs.
    With the 2016 Presidential campaign behind us, our 
employees continue to meet the significant requirements of the 
mission in the face of our ever-changing threat environment. 
Under Director Clancy's leadership, we will continue to support 
all of our employees as we build our hiring and retention 
initiatives--there are many--and fight to provide them with the 
commensurate compensation for the long hours that they work on 
behalf of the American people. We have made tremendous strides 
in fulfilling these. We bring the same focus to the 
recommendations made by this committee.
    On behalf of Director Clancy and his executive staff, I 
would like to thank the men and women of the Secret Service for 
their hard work and sacrifices this entire year. The agency has 
a proud tradition of operational excellence and 
professionalism. I know the Director is deeply committed to the 
workforce and will continue to do everything he can.
    Chairman Chaffetz, Ranking Member Cummings, and members of 
the committee, that concludes my testimony, and I do welcome 
your questions going forward.
    [Prepared statement of Mr. Dougherty follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Mr. Nally, you're now recognized for 5 minutes.

        STATEMENT OF BRIGADIER GENERAL KEVIN NALLY, RET.

    General Nally. Thank you, Mr. Chairman, for this 
opportunity.
    I actually do not have a written statement, but I would 
like to caveat and say: The state of IT within the Secret 
Service is taken very seriously by the Director, his staff, and 
the entire Secret Service.
    For the record, I was not with the Service when this 
information happened in the OIG report. However, I'd be happy 
to talk to you about what I've done, with Mr. Clancy's support, 
to fix what is in the OIG report.
    We've made significant organizational improvements in late 
December 2015, and the successes during each national special 
security event are a testimony to mission accomplishment, our 
current leadership in place, and our continual progress for 
system security and a continued focus on supporting a mobile 
workforce.
    Thank you, sir.
    Chairman Chaffetz. Thank you.
    The Inspector General, Mr. Roth, you're now recognized for 
5 minutes.

                STATEMENT OF THE HON. JOHN ROTH

    Mr. Roth. Chairman Chaffetz, Ranking Member Cummings, and 
members of the committee, thank you for inviting me here today 
to testify.
    The Secret Service has taken action to address the concerns 
and challenges identified by our office, the Protective Mission 
Panel, and this committee. Although we have seen encouraging 
progress, many of the implemented changes will require long-
term commitment and planning. We will continue to monitor the 
Secret Service's progress in implementing our recommendations 
and that of the PMP over time.
    In our most recent report, released today, we looked at the 
Secret Service's progress in meeting the Protective Mission 
Panel's 19 recommendations that it made in December 2014. We 
found that the Secret Service has clearly taken the panel's 
report seriously, and Director Clancy has shown a strong 
commitment to fully implementing the panel's recommendations.
    For example, one of the panel's major findings was that the 
Secret Service had never developed a budget process that 
articulated its mission or a corresponding staffing and budget 
plan to meet its needs. This meant, as its operational tempo 
has increased, the Secret Service often fixed short-term 
problems at the expense of long-term ones, such as deferring 
technology refreshes to pay for operational travel or paying 
large amounts of overtime rather than fixing the hiring 
process. To cure this, the Secret Service has for the first 
time developed a mission-based budget for fiscal 2018, which 
should address many of the causes of equipment and personnel 
shortfalls.
    The Secret Service has also taken actions or plans to act 
on the panel's recommendations related to staffing, training, 
technology, leadership, and organization. Of note, they have 
hired civilian professionals for many of the mission support 
functions, including the CFO, the CIO, the Chief Operating 
Officer, and the strategic planning and technical development 
functions. However, again, fully implementing changes and 
resolving the underlying issues will take a multiyear 
commitment and depend heavily on adequate funding and staffing.
    And, unfortunately, some of the initiated or proposed 
actions have not yet resulted in the desired outcomes. The 
Secret Service has increased hiring but still struggles with 
staff retention. For example, they hired 402 special agents 
between October 2014 and June 2016 but lost 420 special agents 
through attrition, for a net loss of approximately 18 special 
agents. During the same period, they hired 342 Uniformed 
Division officers but lost 312 through attrition, again, 
gaining only 30 officers during that time period.
    Although training has been enhanced, it continues to be 
hindered by low staffing levels and high operational demands on 
the workforce. The Secret Service continues to be challenged by 
significant hiring delays. A lack of dedicated human resources 
staff lengthens the hiring process. For example, special agents 
in field offices conduct polygraph examinations and background 
investigations as collateral duties, but their primary duties 
of investigation and protection, of course, take precedence. 
Additionally, low staffing levels of human resources personnel 
has slowed the process. At the end of 2015, for example, almost 
a third of human resource positions went vacant in the Secret 
Service.
    Finally, we took a closer look at the state of the Secret 
Service's IT program in light of the episode in which agents 
improperly accessed and distributed Chairman Chaffetz's 
personal information contained on the Secret Service mainframe 
known as MCI. We found that the data that was contained within 
the mainframe was migrated to five different data systems. 
Unfortunately, in a report that we released several weeks ago, 
none of those systems have adequate protections in place to 
prevent similar breaches from happening.
    We found major IT systems running without an authority to 
operate, which is a certification approved by the DHS CIO that 
effective controls are in place to protect the information on 
the systems. Additionally, we found inadequate, incomplete, or 
missing system security plans, inadequate controls on who has 
access to the systems, and poor audit controls, which hinders 
the Secret Service's ability to detect unusual user activities 
and provide the appropriate response to potential or actual 
security risks.
    Moreover, we found that each of these systems had poor 
privacy protections and inadequate record retention practices. 
In fact, we found employment applications that were more than 5 
years old, including records up to 14 years old. We found 
Chairman Chaffetz's 2003 application for employment, for 
example, and the corresponding personal information still 
remaining within two of Secret Service's systems and, 
therefore, susceptible to unauthorized access.
    After we brought this to the Secret Service's attention, 
they deleted that record in January 2016. However, the Secret 
Service could not provide assurance that other applicants' 
records and corresponding personal information had been 
properly expunged from their systems.
    We determined that the cause of these issues was that IT 
management had not been a priority historically. We found that 
the responsibility for the IT function had been unwisely split 
into two parts and that the CIO at the time did not have 
sufficient authority over the data systems and the Secret 
Service suffered from significant turnover and staff vacancies. 
We believe that the Secret Service is moving to correct these 
deficiencies and will, of course, monitor that progress.
    This concludes my testimony. I will be happy to answer 
questions that the committee may have.
    [Prepared statement of Mr. Roth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you, Mr. Roth.
    We'll now recognize Mr. O'Carroll for 5 minutes.

        STATEMENT OF THE HON. PATRICK P. O'CARROLL, JR.

    Mr. O'Carroll. Good morning, Chairman Chaffetz, Ranking 
Member Cummings, and members of the committee.
    As the chairman noted in his opening, one of our Secret 
Service members told us that he participated in every campaign 
rotation this year. In May, he approached the pay cap. At 
yearend, he will have exceeded the pay cap by around $30,000. 
He has missed holidays, birthdays, and other life events. He 
has been away from home for almost 8 months, and while off 
campaign rotations, he is often away participating on 
Presidential and Vice Presidential protective assignments.
    Another member told us that he worked more overtime hours 
in April and September than regular work hours.
    Lastly, an agent told us that if the candidate wins, he 
will approach being $40,000 over the cap. His average workweek 
is 90 hours. He is away from his family for weeks at a time and 
misses out on various functions of his school-age children. His 
wife feels as though she is a single mother. And there is no 
financial benefit to his being away. The burden is actually 
greater since they have to spend more money on childcare since 
he can't help out.
    On behalf of the membership of the Federal Law Enforcement 
Officers Association, thank you for the opportunity to appear 
here before you today. FLEOA is the largest nonpartisan, 
nonprofit professional association, exclusively representing 
more than 26,000 active and retired Federal law enforcement 
officers across 65 different agencies.
    I would like to discuss in my testimony today the challenge 
faced by U.S. Secret Service special agents who have worked 
hundreds of hours of uncompensated overtime during the course 
of the 2016 campaign season. This is an issue with which I am 
very familiar, having served as a special agent on Presidential 
candidate details as well as permanent assignments on both the 
President and Vice Presidential protective divisions over my 
24-year career in Secret Service.
    The 2016 Presidential campaign has proven to be one which 
by most measures was unprecedented. Over the course of the past 
year, many Secret Service agents have participated in 
approximately 7,000 protective stops, spent over 200 nights on 
the road, worked 16 or more hours per day, and likely did not 
spend more than 1 night in the same bed. Without them, however, 
the sacred process we go through every 4 years may not happen 
safely.
    During this 1 year, exceptional sacrifices of family, 
friends, and life are required of special agents, who are 
forced to work inordinate amounts of overtime under an 
operational tempo that is not unlike a military deployment.
    Yet, despite the unusual demands placed upon agents this 
campaign season, many of them will not receive full 
compensation for the long hours that they have worked. It is 
not free money or a bonus, but money earned logging 16-hour 
days for weeks on end with back-to-back rotations between 
campaign travel and investigative details.
    They have lost and will continue to lose a significant 
amount of overtime compensation this year because their pay 
cannot exceed the pay for a GS-15, step 10. The current 
situation has become not just a recruitment and retention issue 
but a fundamental matter of fairness to those who willingly 
place themselves in harm's way for long hours spent carrying 
out their sworn duty to protect and serve.
    Fortunately, a solution that will ensure compensation for 
these and other Secret Service agents affected by the pay cap 
this year is in sight. Thanks to the efforts of this committee 
and your colleagues on the Homeland Security and Government 
Affairs Committee and both the House and Senate Appropriations 
Committees, Congress is close to finalizing language that will 
provide the USSS with a temporary waiver of the pay cap.
    Language like this has been included in both the House and 
Senate versions of Fiscal Year 2017 Homeland Security 
Appropriations Act to waive the pay cap up to level 3 of the 
Executive Schedule for either 2016 or for both 2016 and 2020. 
It is also proposed to fund at level 2, and FLEOA fully 
supports the ES-2 level since this will certainly provide some 
measure of relief for the affected agents.
    So, while FLEOA greatly appreciate your efforts, Mr. 
Chairman and Mr. Cummings, we would also like to stress the 
importance of working together to find a permanent solution to 
this pay cap issue. Such a solution could include granting the 
Director of the Secret Service the authority to waive the 
application of the pay cap as necessary during a calendar year 
to meet the demands of the agency's protective functions.
    In conclusion, Mr. Chairman, I would like to thank you and 
Ranking Member Cummings again for working with us to address 
this important issue. As a Nation, we expect a lot from the 
small group of patriotic men and women of the USSS, who 
voluntarily choose to stand between anarchy and order to ensure 
the leaders of our Republic are able to perform their jobs free 
from threats or the fear of assault.
    At its core, it is a fundamental matter of fairness to 
ensure that these individuals are fully compensated for the 
duties they perform on a daily basis, and we greatly appreciate 
your efforts to do just that.
    Thank you again for the opportunity to appear today, and I 
would be happy to answer any questions.
    [Prepared statement of Mr. O'Carroll follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentleman from Tennessee, Mr. 
Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Dougherty, your agency reported a total staff of 6,507 
at the end of fiscal year 2016. That was up from 6,289 at the 
beginning of the fiscal year, so there's actually been an 
increase in employment over the past fiscal year.
    But I am told that the Service also uses contract 
employees, but the staff doesn't seem to know exactly how many 
contract employees you have. So can you give me some rough idea 
about how much work is being done with contract employees? And 
has that number also gone up in this past fiscal year?
    Mr. Dougherty. Thank you, Mr. Duncan, for that question.
    So I can go right to the heart of it, and that is that 
we're doing everything we can in which to up the tempo for 
hiring. And, in particular, we have, in fact, added substantial 
numbers of contractors, both on the Talent Acquisition Division 
group, which basically hires people at the beginning of the 
process--that's roughly about 24 individuals, if I recall 
correctly the number. And that's basically on a two-time basis, 
sort of in terms of sort of the schedules.
    And, in addition, on the security side, we've actually 
added substantially another 20-plus contractors to sort of 
upgrade the tempo. That reflects several man-hours of effort 
for contractor support in which to sort of up the tempo on 
that.
    I might add to that then that, you know, in fiscal year 
2016, we literally hired 327 special agents, 309 Uniformed 
Division officers, and 194 professional people, so 830 
individuals in 1 year. If we continue to go forward on the pace 
that we're doing, we will hire 1,666 individuals over the next 
2 fiscal years, this fiscal year and next. We are, in fact, 
ramping up and really trying to increase the pace.
    Mr. Duncan. Sixteen hundred over and above the 6,500-plus 
that you have now?
    Mr. Dougherty. That adds to the ultimate bottom-line 
numbers. Of course, you always have to factor attrition into 
that, and that is always an issue for us. But, ultimately, we 
are attempting to try to really increase the pace.
    Mr. Duncan. All right.
    Let me ask you this. The committee issued this report 
that's already been mentioned at the end of last year, and it 
says, ``The Secret Service has failed to make clear that 
protection is its ultimate priority.'' And I understand that, 
ordinarily, about a third of the time is being spent on 
protection-related activities, but that ramped up to 44 percent 
during the election.
    But we've seen many hateful, very hateful, demonstrations 
against President-elect Trump just in the last few days, 
several places around the country. Are you going to ramp up 
your protection? Are you going to give President-elect Trump 
more protection than you would ordinarily do? What's your 
thoughts on that?
    Mr. Dougherty. Well, first, of course, protection is the 
priority mission of the United States Secret Service. And if 
there's any doubt about it, Director Clancy has said that--I 
apologize--that protection is the priority mission of the 
Secret Service. Director Clancy has said that.
    With respect to both the inaugural and all the other 
things, procedures or methods related to protecting the new 
administration, obviously, we will continue to use the model 
that's been very successful in going forward to providing 
protection to the President. And I think the same thing sort of 
applies to this President-elect as it does for the previous 
President.
    Mr. Duncan. The committee has a report that says the IT 
systems at the Secret Service are described as the worst at DHS 
and that, quote, ``managers cannot even explain basic IT 
principles'' and that Department officials have said that 
there's a culture of mishandling of secure information. Of 
course, we have that report of the contract advance person at 
the White House whose Gmail account was hacked with all sorts 
of secure information.
    What's the latest on that? Do you still believe that that's 
accurate, that the IT systems at the Secret Service are the 
worst in the whole Department?
    Mr. Dougherty. So let me just answer that first for my 
colleague, in the sense of let me introduce Kevin Nally.
    Mr. Duncan. All right.
    Mr. Dougherty. One of the principal structurally important, 
profound things that we did in the Secret Service--and I think 
this is an important decision made by Director Clancy--is to 
bring in a professional who was not an agent to effectively run 
our IT systems in the Secret Service.
    Mr. Nally could actually clearly address the issues 
regarding the technology part of this.
    General Nally. Thank you, sir. I'll break it up in a couple 
parts.
    First, one, is it a cultural issue? No, it's not a cultural 
issue. The individuals that did get out of place, do wrong 
things, is roughly .7 percent of the population at Secret 
Service. It's not a cultural thing. We now have procedures in 
place to check for that. People understand the ramifications of 
their actions in that regard, and, plus, we have training and 
education on PII and sensitive types of information.
    Number two is, in the OIG report dated October 7, 2016, 
released October 14, 2016, seven of those recommendations are 
mine. Six of those have been closed--six of them. Six of them 
were closed prior to the report being released. The one that's 
going to be continued ongoing is a continual type of education 
and training for my information systems security officers, 
cybersecurity professionals, and those that have access to the 
network, in terms of cybersecurity awareness, phishing-type 
drills, et cetera, et cetera.
    When I arrived here on November 16, 2015, I saw a need for 
a complete reorganization of the Information Resources 
Management Division that was under another assistant director 
to the office of the CIO. And I want to stress, too, that this 
is how Mr. Clancy sees IT. He knows it's very, very important 
to the Secret Service mission, and I have and had his full 
support in this.
    I now have a complete accounting of all IT spending in the 
Secret Service. I'm the only CIO in the Secret Service, and I'm 
the only designated approving authority for those systems that 
we operate in the Secret Service. And all this has been 
rectified. And, again, I'm the only CIO, I'm the only DAA, and 
I have direct oversight on all IT spending.
    Additionally, in the OIG report dated October 7, 2016, 
three of the four systems in that report now have ATOs. The 
fourth one is human capital, which I gave a target date of 
December 31, 2016, and we're on track to meet that.
    Thank you.
    Mr. Duncan. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentlewoman from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. And I appreciate that 
you have held this hearing. It comes at a timely moment.
    I want to say to our witnesses how much we appreciate your 
service to our country. You've come before us when we've had a 
number of complaints. I don't think that is what this hearing 
is about today.
    And I must say, I do not envy you with your mission in the 
coming months. I have never seen Americans reply or respond to 
an election by going in huge numbers to the streets simply to 
protest the new President even before he has done anything. 
This is a President and others who have to be protected by you.
    So the notion of a honeymoon is out of the window. Then you 
have the upcoming inauguration. And here in the District, we 
are awaiting that. And, of course, there are people who promise 
to come in huge numbers for that event.
    There was concern about your mission when we had our first 
African-American President. Some have expressed even greater 
concern today, given the division in the country.
    I am very pleased that this committee issued a bipartisan 
report that used very strong language, particularly strong 
language when it comes to staffing, but it was bipartisan 
language, in December of last year, where the committee, this 
committee found--and here I am quoting--``a staffing crisis 
that poses perhaps the greatest threat to the agency.'' Now, 
that, of course, was before all of what I have just described.
    We found, this committee found, that the Secret Service had 
fewer employees than at any time over the past decade, and we 
found an 8-percent decline in special agents over a 5-year 
period.
    Then, in August, this committee sent a letter to you, to 
the Secret Service, requesting quarterly staffing updates, and 
last week you responded. Mr. Dougherty, if I understand your 
response, there was a net increase of 84 special agents during 
fiscal year 2016. That's about a 3-percent increase. Is that 
correct?
    Mr. Dougherty. Yes, ma'am. Generally, that's the number, 
roughly.
    Ms. Norton. Now, that certainly is important to note. The 
number is still significantly below the number of special 
agents before the so-called sequester. Isn't that correct?
    Mr. Dougherty. The series of events that occurred for the 
Service from 2011 on really contributed significantly to the 
Service effectively sort of bleeding off individuals.
    Ms. Norton. ``Series of events,'' by which you mean what?
    Mr. Dougherty. That we had a funding deficit already going 
into 2012----
    Ms. Norton. Yes. Then the sequester and other----
    Mr. Dougherty. And it was exacerbated by a variety of other 
events. It was----
    Ms. Norton. But here's my concern.
    Mr. Dougherty. --a perfect storm.
    Ms. Norton. It looks like you did, in fact, hire a number 
of agents--the figure I have is 281 special agents--in 2016, 
and yet there was only a net increase of 84. What happened to 
the nearly 200 agents? I'm concerned with you're hiring them, 
you're not keeping them. Or somebody is leaving. Who is leaving 
and why?
    Mr. Dougherty. So we're hiring at historic rates, and we 
also have an attrition issue which we're attempting to try to 
address as well. And so----
    Ms. Norton. You ascribe that attrition issue to what? And 
are they older agents, people ready to retire? Are they the new 
agents who are coming in who are not retained? Who are they?
    Mr. Dougherty. It's a series of issues, Congresswoman 
Norton. You go through waves where you hire at certain times at 
high levels, and those people will effectively leave at 
generally the same time. But we also, too, just simply have a 
really tough, tough mission. And, ultimately, we're----
    Ms. Norton. Is it what Mr. O'Carroll spoke of, the working 
conditions that have developed? There are too few agents; some 
agents are doing two or three jobs rather than one job?
    Mr. Dougherty. Absolutely. That's one of the many issues 
that we are addressing, yes, ma'am.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Chairman Chaffetz. I thank the gentlewoman.
    I now recognize the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. O'Carroll, I don't know if this is a memo or if this 
was a press release from FLEOA. I'm going to read part of it, 
and then that will give us some context to have a conversation: 
``Unfortunately, we have seen some in Congress act as if they 
were part of the media.''
    I want to just stop right there and say, of all the 
criticisms that Members of Congress have gotten in the 6 years 
I've been here, that one hurts the most.
    ``Instead of introducing bills that could help our agency, 
they'd rather go for the 30-second sound bite that tarnishes 
the reputation of the agency and work ethic of its personnel. 
This is unfortunate, as we do have many allies in Congress that 
appreciate the work of the Secret Service, its personnel, and 
want to help, but they are overshadowed by the screaming 
minority who might not even be able to pass the test for our 
job.''
    Now, I consider myself to be one of your allies, so I don't 
think you have a better friend in Congress than the former 
prosecutors. But I am wondering what Members of Congress you 
were referring to that would rather pursue a 30-second sound 
bite than help the agency.
    Mr. O'Carroll. Well, Representative Gowdy, I guess, first 
and foremost, that isn't my quote. It is a quote of a 
representative from the Secret Service who is a member of my 
association and it came out on our letterhead, so yes. Our 
concern on this thing is--and we've been dealing with your 
committee, in fact, with you, with the chairman, and expressing 
our concerns that this is a budget issue that needs to be 
coming from the authorizers to the appropriators and asking the 
appropriators to, you know, to add the money that will help 
with the pay cap on this thing.
    Mr. Gowdy. Well, and see there, you just made your case 
without talking about any Member of Congress who is more 
interested in a 30-second sound bite than they are helping the 
agency, you just did it, which makes me wonder why this memo 
didn't do it.
    Are there Members in particular? I actually don't think 
I've ever been on television talking about the Secret Service, 
so I don't think you're talking about me. Who are you talking 
about?
    Mr. O'Carroll. In this case, as I said, Mr. Gowdy, I didn't 
write that one, so I'm not too sure specifically which Member 
was being talked about.
    Mr. Gowdy. But it came out on FLEOA letterhead.
    Mr. O'Carroll. Yes, sir.
    Mr. Gowdy. Right?
    Mr. O'Carroll. Yep.
    Mr. Gowdy. And I'm assuming you don't let people send 
things out on your letterhead that don't at least have some 
imprimatur of your support.
    Mr. O'Carroll. Well, Mr. Gowdy, what I can do on that one 
is I can go back to the author of it and find out which Member 
he was speaking about specifically. But I got to tell you, this 
is a can that's been kicked down the road for years and years 
in terms of this overtime issue.
    Mr. Gowdy. Right. I get that.
    Mr. O'Carroll. And there's a lot to blame.
    Mr. Gowdy. But because I am an ally, sometimes allies also 
need to offer some words of correction. That paragraph ended by 
saying, ``overshadowed by the screaming minority who might not 
even be able to pass the test for our job.''
    Can you see how that might have gotten my attention, the 
way that that would be phrased, ``might not be able to pass the 
test for our job''?
    Mr. O'Carroll. Yes, sir.
    Mr. Gowdy. That's a curious line to put in a memo, isn't 
it?
    Mr. O'Carroll. Yes, sir.
    Mr. Gowdy. Except it's not curious. You and I know exactly 
what that author was talking about, don't we?
    Mr. O'Carroll. I could guess at it, yes.
    Mr. Gowdy. Guess.
    Mr. O'Carroll. Would be some members of this committee.
    Mr. Gowdy. Such as whom?
    Mr. O'Carroll. I have no idea.
    Mr. Gowdy. How about the one whose personnel file was 
accessed? Could it be that one?
    Mr. O'Carroll. I would say that there hasn't been very good 
treatment of that application over the years, which is one of 
the reasons why we're here, and maybe that was a subliminal 
reference to it. I don't know. I didn't write it.
    Mr. Gowdy. Well, it's actually not subliminal. It could not 
be more clearer. There's nothing subliminal about it. It just 
flat out says, who could not pass our test for our job.
    Mr. O'Carroll. And it was a general statement on it, not 
specific, sir.
    Mr. Gowdy. Well, Mr. O'Carroll, you can't run a license tag 
because you happen to think the driver is cute, you can't run 
an NCIC background check because your kids might be hanging out 
with some bad characters, and you can't access the personnel 
files of Members of Congress that you happen to not like at 
that particular point. You would agree with me there, wouldn't 
you?
    Mr. O'Carroll. Reprehensible, and I agree with you.
    Mr. Gowdy. All right. Well, it's reprehensible.
    Mr. Inspector General, what happened to him.
    Mr. Roth. My understanding is that there was discipline 
that was imposed by the department. I don't have those details 
because I was not involved in the discipline process.
    Mr. Gowdy. Well, when you say discipline, give me the range 
of discipline that could be possible.
    Mr. Roth. Well, I think the range of discipline could be 
anywhere from termination----
    Mr. Gowdy. Was anybody terminated?
    Mr. Roth. My understanding is no.
    Mr. Gowdy. Was anybody given time off?
    Mr. Roth. My understanding was, yes, people were given----
    Mr. Gowdy. With or without pay?
    Mr. Roth. Given time off without pay that was not 
suspended. There was a number of individuals who were, received 
time off, and that was suspended, but there were others who 
actually did get time off.
    Mr. Gowdy. How pervasive was the breach?
    Mr. Roth. Well, our report said that it was approximately 
40-some people, only of which 3 had--or 4, I can't remember off 
the top of my head----
    Mr. Gowdy. Is there any ambiguity on whether or not it's a 
good idea to access anyone's, Member of Congress or otherwise, 
application or personnel file to use for retributive purposes?
    Mr. Roth. No.
    Mr. Gowdy. Is there any ambiguity about whether or not 
that's a good idea.
    Mr. Roth. It is not.
    Mr. Gowdy. Can you let me know what discipline was meted 
out? There's no one in Congress that holds law enforcement in 
higher esteem than I do, no one. But we choose to go into that 
line of work, and the rules apply even to us. And I think 
doing--accessing programs that the public does not have access 
to, to try to embarrass your critics, to use Mr. O'Carroll's 
word, is reprehensible. So I'd like to know what punishment was 
meted out.
    Mr. Roth. Very well. Thank you.
    Mr. Gowdy. With that, I would yield back.
    Chairman Chaffetz. I thank the gentleman.
    I'll now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. I want to really kind of get down to the 
bottom of this. And I think Ms. Norton was headed in the right 
direction. If we are hiring agents and they are leaving almost 
as fast as we're hiring them, gentlemen, we need to figure out 
why we're losing so many so quickly and whether that has 
anything to do, Mr. Roth, with the infrastructure inside the 
Secret Service.
    But before I get to that, I want to ask you, Mr. Dougherty, 
what are you all telling the agents about their salaries, and 
how do you keep their morale? What do you say to them? Did you 
say that you were coming up here with the urgency of now to try 
to help them get adequate pay? I'm just curious.
    Mr. Dougherty. I think that's one of the things, Mr. 
Cummings, that we're attempting to try to do differently and 
better, is simply communicate to populations in a different 
way. Director Clancy sends out videos to the population all the 
time about what we're trying to do to change the overall 
culture and the overall----
    Mr. Cummings. Did you say to them that you're trying? 
Because I got to tell you, going back to some of the things Mr. 
Gowdy said, you've got a lot of allies up here. So we're trying 
to figure out--so do you tell them you're going to go and try 
to fight to make sure they get their overtime?
    Mr. Dougherty. I think they're seeing that, I think they're 
sensing that, I think that we are telling them that, that 
there's a committed leadership on the part of the Secret 
Service to try and sort of change many of these different 
things. Pay is a big part of it, obviously. There's a lot of 
other things, too, that go to sort of quality of life. We did a 
work/life assessment with that third party as well to basically 
sort of open up ourselves to try and get an idea as to how to 
be able to approach those things.
    So structurally there's so many changes taking place in the 
Secret Service right now, I feel confident and enthusiastic 
about a lot of the things that are going on. I'm also 
enthusiastic about the fact that we're talking about proposed 
legislation, which I think does in fact address a very 
important issue that's been a chronic one and a recurring one 
for the Secret Service over the years.
    Mr. Cummings. Well, Mr. Roth, you've got to help me on this 
one. I swear, I don't want to be going in circles on this. And, 
you know, I looked at some of the things that you've said, and 
you said it several times in your testimony, you talk about 
requiring a multiyear commitment and depend heavily on adequate 
funding and staffing. There's two parts to that.
    So can you tell us what we need to do, first of all, to 
help the Secret Service not have this bucket that as fast as we 
pour agents in, we lose them out. I mean, I think that's what 
we've got to get--that's the bottom line. And I think that's 
where the chairman is. We're trying to figure out how do we be 
more most effective and efficient.
    So can you help us? I mean, tell us what they are doing 
wrong. Tell us if they should be moving faster. This long-term 
commitment, what does that mean? You know, we need to know 
because I think that would help guide us as to what we do.
    Mr. Roth. I mean, these are systemic problems that have 
accumulated over years. So, for example, with the hiring 
situation, for example, you have Secret Service agents who do 
protection and do investigations, but also, as a collateral 
duty, they have to do the background investigations of 
applicants that are coming in. They have to do the polygraph 
investigations of the folks that are coming in. That is a 
hugely inefficient process. It creates a bottleneck for the 
Secret Service.
    So the time to hire numbers for the Secret Service are 
very, very long. For a special agent, it's often in excess of a 
year.
    To be able to sort of modernize their systems, their 
personnel systems, having a third of their HR personnel slots 
vacant, in other words, they simply don't have the personnel to 
be able to hire at the kind of tempo that----
    Mr. Cummings. Stop right there.
    Mr. Roth. Sure.
    Mr. Cummings. Why is that? Because that's very significant, 
if you don't have the hiring component and you've got missing 
people there, vacancies there. So what's stopping them from 
having those people? Is this a thing of musical chairs with 
regard to the budget, or what? I mean, what's----
    Mr. Roth. I think it's a chicken-and-egg problem, because 
they don't have enough personnel to sort of ramp up the kinds 
of efforts that they need to get more personnel. There are 
things that they are doing, for example, with their IT system 
for how it is that they process applications. They're having to 
modernize that.
    As the chairman talked about before, right now they have a 
fairly antiquated system where people email PDF copies of their 
background investigation form, which then gets printed out, 
physically reviewed, and then reentered in. There's just 
enormous inefficiencies in the system that have grown up over 
time.
    So I think what the Secret Service is attempting to do is 
professionalize what it is that they do. But, for example, 
changing an IT system within the government takes years, and 
there's no really getting around that. By the time you get your 
requirements together, by the time you do the acquisition, by 
the time you develop the process that you need, it will be 
years from now before they will have an effective IT system.
    Mr. Cummings. The problem is that in the meantime, as Ms. 
Norton said so eloquently, we have a President-elect who we 
want to--I mean, he's coming under a lot of--I know that's 
going to put a lot of pressure on the Secret Service because 
you see what's happening in the streets. We want to make sure 
that he is properly protected.
    So all the time that you're talking about it's going to 
take, how do we speed that process up and not subject him and 
his family and others to less than adequate protection, and at 
the same time, and at the same time properly compensate the men 
and women of the Secret Service so that we don't have a further 
erosion of morale?
    I mean, I think those are the questions that are the bottom 
line and should be the bottom line for this entire hearing.
    And then I'm almost finished, Mr. Chairman.
    So Mr. Nally--Mr. Roth, keep your mic on, keep your mic 
on--Mr. Nally, you've heard what Mr. Roth said and Mr. 
Dougherty. How do we do that? Again, we're losing people. He 
just said that we've got some things that we need to fix.
    Talk about the HR department. We want to know what you're 
going to do to make the elite--help to make the elite the elite 
and be able to staff up. Because we can pass all the money 
that's out here, but if we don't have the mechanisms to hire 
people and morale is being damaged, you know, that's a problem. 
So help me. Talk to me.
    Mr. Dougherty. Ranking Member, if I can add to that. I 
think that we have in fact put most of the mechanisms, 
refreshed modernized mechanisms. Let me sort of go through a 
couple of them.
    First of all, we changed our hiring system completely from 
2013 through 2014 and 2015 now. It's a completely different 
hiring system right now.
    We have ELAC, basically, where we go and have people come 
to a single place. We have now committed to--the Director is 
committed to hiring a new professional civilian chief human 
capital officer. We completely restructured our entire hiring 
process and also our human capital structure and effectively 
now have a national recruitment strategy.
    Now, so I'd say that the numbers that I gave you, over the 
next 2 years, we will have hired a third of our entire agency 
over again. It's not about the numbers. We are doing everything 
we can to bring in people.
    Now, the campaign will subside. We will get back to sort of 
a cadence where I think people start to kind of settle. And I 
think that that retention levels that we're experiencing right 
now, which are historic, are going to sort of calm down.
    We do believe that we're going to get to a place where next 
year we're going to be at 6,805 individuals and that the next 
year, finally, additional individuals. We are moving towards 
that. And remember, 6,805 is substantially over where we've 
been, and it's moving rapidly towards the direction of 7,025, 
where we were in 2012.
    Mr. Cummings. Mr. Roth, will you--I just want to--my time 
has expired. But I've been wondering, can you comment on what 
he just said?
    Mr. Roth. Well, I certainly think that the building blocks 
are in place, that they have professionalized their staff. For 
example, a CFO who is a professional CFO, a CIO, a chief 
operating officer, now a chief human capital officer, all those 
were recommendations of the PMP that they thought were 
necessary to get the basic building blocks of, you know, 
management fundamentals down as opposed to having agents come 
through on 3-year rotations to try to, you know, be the CIO.
    But time is going to tell whether or not this is 
sufficient. Right now they are caught, I think, in a vicious 
cycle; that is, with the increased tempo means that there's 
going to be increased attrition, and then increased attrition 
means that the work tempo for everybody else who's left 
increases.
    So perhaps Mr. Dougherty is right that they will be able to 
break that cycle at the conclusion of this election events, and 
we will simply monitor it and see.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I'll now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank each of you for your testimony. And I want to start 
off by saying that I've enjoyed a good relationship with 
Director Clancy and his leadership. I wear a law enforcement 
pin almost every day that I am here or in the district. It is 
my heart and my passion.
    I'm frustrated a little bit because of what I hear today. 
Mr. Dougherty, just to be frank, you refer to your agents as a 
population. They're not a population. They're people. They're 
families. And I've had the pleasure of being able to work 
alongside them in North Carolina where we got to see a lot of 
the people that have been away from their families for a very 
long time, not just with the Secret Service but with the 
Department of Homeland Security as well.
    And so when we look at the strains, I'm all about making 
sure that they get compensated properly and that we don't have 
this systemic problem. But here's my concern, Mr. Dougherty. I 
continue to hear from agents who say that the systemic problem 
within the Service is not about the systems, it's not about the 
computer systems, it's about the 8th floor, it's about the 
management and the fact that what we do is we continue to force 
people to relocate in the middle of their term at 14 or 15 
years with the Service, we continue to upend them.
    And when are we going to fix that problem? Because you talk 
about bad morale, you move somebody from California to 
Washington, D.C., because it's the way that you do business. It 
is time, and your counselor there behind you knows that this is 
not our first rodeo together. It is critical that we handle 
this problem because you're going to continue to have retention 
problems until you fix the overall feeling within the Service 
that the people just a few blocks from here care about them and 
their families. So what's your plan for that?
    Mr. Dougherty. Well, first of all, thank you, Congressman 
Meadows for the comment about law enforcement. I do very much 
appreciate that. And I didn't mean to convey necessarily 
population versus people. Ultimately, they're individuals, 
they're people, and we need to care about each and every one of 
them and take care of each of them and to effectively trust 
them and feel pride in them.
    I think this is the one area that I think that if we're 
really doing well, I think it's this area. We have onloaded 
ourselves, in terms of starting, really asking for people 
outside the agency to come in and focus group our people and 
ask them the very issues that you're raising. How do you feel 
about special agents?
    Mr. Meadows. So what have you changed? I've only got 5 
minutes. So based on that input, what have you changed? Because 
I haven't seen a whole lot of change.
    And getting back to what General Nally said, I believe that 
the vast majority, if not almost all of our agents, there's not 
a cultural aspect of poor performance. But I do believe that 
there is a cultural problem with regards to the way that the 
Service looks at who gets hired, when they get hired. Even the 
new agents who would gladly come to Washington, D.C., you send 
them somewhere else and then you bring them back midstream as 
if that's some kind of wonderful way to do the project.
    Have you addressed that? Yes or no?
    Mr. Dougherty. Yes, sir, I believe we have. Let me just 
raise just a couple of points here.
    Mr. Meadows. So when I start getting phone calls, and they 
call me directly, when I start getting phone calls, I'm not 
going to have to come back and ask you to clarify your sworn 
testimony today, you've addressed that?
    Mr. Dougherty. They asked us to change the special agent 
relocation committee. We did that. They asked us to change the 
way that there's requests, basically, for exceptional 
circumstances. We changed that. They asked us for a new special 
agent promotion process. We changed that. They asked us for a 
new special agent career progress----
    Mr. Meadows. So why do you have the retention problem then?
    Mr. Dougherty. I think basically there's----
    Mr. Meadows. Because it isn't money, I can tell you. Money 
is a motivator for 6 weeks. Now, getting them properly paid and 
overtime, that is an issue. But the other issue that 
systemically within the Service has nothing to do with the 
amount of money, it has to do with the culture that is there. 
And I've heard from too many agents to know that that's not the 
case.
    Mr. Dougherty. Well, I think compensation is a big part 
because when you're crushing people and you're asking them to 
go----
    Mr. Meadows. Well, you've got people behind you that are 
disagreeing with you right now. I watch people, and they're 
disagreeing, they're shaking their head no. They would agree 
with my statement that it has some to do with money but a whole 
lot to do with the culture.
    Mr. Dougherty. I'm not disagreeing with you. I think it has 
something to do with money. I think it has to do with a lot 
more than that. I think there's a lot of things that we are 
attempting to try and move and change.
    So all of the different things that came up in the Eagle 
Hill, for example, work/life process, that basically we--that 
they said--asked us to do, we are implementing. We're 
effectively going forward and doing those things.
    We just put our work/life study on our intranet site. It's 
there for our people to see. What do they recommend? What are 
we moving forward on? It's many things. It's multiple things.
    So I do think that there is, in fact, progress made. We're 
hoping that we see the effects of that progress.
    Mr. Meadows. Well, this committee wants to hear from those 
agents that are being affected for recommendations so that we 
can follow up with you.
    I appreciate the chair holding this hearing. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I'll now recognize the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman, and the ranking member.
    I want to thank the panelists, Mr. Dougherty, Mr. Nally, 
Mr. Roth, Mr. O'Carroll. I appreciate the job you all are 
doing.
    I have a couple of slides here I just want you to take a 
look at it, if you would. Could we put up the one regarding 
total full-time employees at the Secret Service?
    Well, let me just explain. I'll wait for the slide. While 
we are waiting for them, let me just say, you know, we've been 
looking at a couple of the incidents around the White House 
that have occurred over the last couple of years, last few 
years, you know, people breaching the perimeter, one fellow 
running through the White House down into the Green Room. We've 
had situations with armed personnel getting on the elevator 
with the President. A bunch of embarrassing moments.
    And I think that the pressure on our Secret Service 
employees under this new threat environment, as Mr. Dougherty 
has explained, is only getting worse with the number. Here we 
are, okay.
    [Slide]
    Mr. Lynch. Total full-time employees, if you can look at 
that, in 2006, we seem to be on a trend line of addressing this 
new threat environment. We went from about 6,500 to about 7,000 
employees over 5 years. But that peak, that peak of 7,024 
employees, that's when we came in with the Budget Control Act 
in 2011, and then you see a precipitous decline in full-time 
personnel, down to about 6,300.
    So we've got less now at Secret Service than we had back in 
2006. And as you have explained in your testimony, the threat 
environment is getting worse.
    Can we put up the other one on special agents? Here's 
special agents, okay.
    [Slide]
    Mr. Lynch. So we were trying to ramp up, because of the 
extreme threat environment, we were trying to ramp up. Over 
2006 to about 2011, we went from about 3,200, almost 3,300, to 
about 3,500. And then again the Budget Control Act comes into 
play, and now we've got less than we had in 2006, even though 
the demands on our folks are worse, especially your special 
agents.
    Two of the areas where I think are very important, one is 
processing our employees, our special agents and Secret Service 
personnel, and also training them. Training them. I think, you 
know, that's something that, Mr. Dougherty, you've talked about 
in the past, and, Mr. Roth, you've highlighted that as well, 
and Mr. O'Carroll, you've agreed as well.
    We want a highly professional, capable, well-paid, and the 
pay needs to be better. Not only shouldn't we be, you know, 
putting a Band-Aid on it for 1 year, an election year, we've 
got to look at the whole structure here. We've got to pay our 
agents better. We're asking a lot of them, and we ought to try 
to establish a pay level that will attract the best and 
brightest, and also the academy type. The professionalism and 
excellence that we demand from our Secret Service personnel, we 
have to have commensurate training and pay for them.
    Mr. Roth, is there any special change that we could make or 
any area that Congress could focus on to help our Secret 
Service personnel and help that agency, you know, get to where 
we need them to be?
    Mr. Roth. I think legislatively there's probably not a lot 
that needs to be done, at least in the short term. I would 
recommend continued oversight. I think that's a very important 
and healthy thing that we're going to do, because as I said in 
my testimony and as we say in our reports, they've made initial 
good progress. The leader of the Secret Service has embraced 
the Protective Mission Panel recommendations, has embraced this 
committee's recommendations to move forward.
    But we don't know what the future holds. So the only way to 
be able to continue to hold the Secret Service's feet to the 
fire is with continued oversight that this committee gives and 
hopefully that our office gives as well.
    Mr. Lynch. Okay. I believe my time has expired. I just want 
to thank you all for your contribution to this hearing and to 
the issues that we're working on here. Thank you again.
    I yield back the balance of my time.
    Chairman Chaffetz. I thank the gentleman.
    I'll now recognize the gentleman from South Carolina, Mr. 
Mulvaney, for 5 minutes.
    Mr. Mulvaney. I thank the chairman.
    Mr. O'Carroll, I don't know if you've been here before or 
not. I don't think you've been here since I've been on this 
committee. But I think you'll learn, especially with myself and 
my colleague from South Carolina, Mr. Gowdy, one of the things 
we appreciate is candor. There's really no reason to beat 
around the bush.
    You all were talking about Jason, Chairman Chaffetz, we get 
it, that's fine. Okay. You could sit and go back and forth all 
day saying: Well, I don't know who it might be. I could guess, 
but I won't guess.
    I mean, you all put out another, a separate press release 
that actually specifically mentioned the chairman. It said--and 
I don't know who Jon Adler is, apparently he's your national 
president--quote, ``The chairman's actions boggle the rational 
mind. He's turning his committee into the fictional USS Caine 
as he subpoenas Secret Service law enforcement officers to his 
ship to count strawberries,'' end quote.
    That's about the chairman. The previous statement is about 
the chairman. Let's just be honest with each other. It's a much 
better way to conduct a hearing.
    So I'll ask you a straight question: Do you think it helps?
    Mr. O'Carroll. No.
    Mr. Mulvaney. So why do you do it?
    Mr. O'Carroll. Well, I'll tell you one thing. I've been 
doing this now for 3 months, Mr. Mulvaney, and in that 3 
months, I've tried to tighten up our processes and procedures. 
If you notice in both those cases--and one of, I guess, a 
nuance on this thing, is it isn't from the Federal Law 
Enforcement Officers Association, it's from their foundation 
that those two press releases came. And that Mr. Adler had been 
a president of FLEOA. He went over to the foundation, which is 
the charitable arm of our organization.
    Up until now, anybody who had an officer position had 
access to our letterhead press release type information. That's 
what you're referring to. But I've got to tell you----
    Mr. Mulvaney. I hate to cut you off, but I mean, I mean, 
seriously, man, the headline--it says the Federal Law 
Enforcement Officers Association. Again, this is a minor deal, 
but don't sit there and tell me it's your foundation, not the 
association. I mean, it is----
    Mr. O'Carroll. I'm trying to be as candid as I can.
    Mr. Mulvaney. Is this your letterhead?
    Mr. O'Carroll. It's the foundation letterhead, if I'm not 
mistaken.
    Mr. Mulvaney. No, you are mistaken. It says Federal Law 
Enforcement Officers Association.
    Mr. O'Carroll. Well, then maybe it was under his watch as 
the president, which is outside of mine.
    Mr. Mulvaney. Okay. Let's get to the thing. I mean, 
seriously, you're killing me with this. Let's have an honest 
conversation and not try and--ugh.
    Inspector General Roth, here's, I think, the last question 
I want to ask about the topic, which is the punishments. I 
think one of the things that frustrates us, that frustrates 
people back home, is that something deplorable to happen, 
something awful happens, that the Secret Service of the United 
States of the America used private records about a sitting 
Member of Congress to try and make him look bad and undermine 
his authority.
    In fact, I think you said something disturbing, which is it 
says that there's nothing to prevent that from happening again. 
So you're telling me that today a Secret Service agent who 
doesn't like Mr. Cummings can go and start looking through your 
files for material on him. Is that a true statement?
    Mr. Roth. It depends whether Mr. Cummings was either a 
protectee or an applicant. So, obviously, the Secret Service 
doesn't keep records on everyone.
    Mr. Mulvaney. Okay.
    Mr. Roth. But certainly other applicants who would be in, 
for example, Chairman Chaffetz's situation, those records still 
are there, they still don't have audit protection, it's unclear 
as to who has access to those records, and there's certainly no 
way to detect that.
    Mr. Gowdy. Will the gentleman yield for one question?
    Mr. Mulvaney. I will.
    Mr. Gowdy. How did you all know he was an applicant? How 
did the Secret Service know that Chairman Chaffetz was an 
applicant?
    Mr. Roth. According to our investigation, someone decided 
to look it up in MCI. There was a single individual in a field 
office who just decided to look it up, and from there, it sort 
of spread throughout the Secret Service.
    Mr. Gowdy. But the next point, if you're going to run 
Chairman Chaffetz's name, you could run Ranking Member 
Cummings' name, you could run anyone's name.
    Mr. Roth. Correct. But you may not find a record within the 
MCI system.
    Mr. Gowdy. It was only because Chairman Chaffetz respected 
the Secret Service enough to actually apply.
    Mr. Roth. That's correct.
    Mr. Gowdy. Okay.
    Mr. Mulvaney. Staying on that, Mr. Roth, one of the things 
that frustrates us is that the penalties--no one was fired. I 
think everybody acknowledges that. We've got a report here that 
says that Homeland Security actually reduced the amount of 
discipline from an average of 8-1/2 days to 5.3 days, in part, 
because DHS discovered that mishandling of the information was 
a common practice.
    Since when is that an excuse? I mean, you had an assistant 
director who encouraged the release of this information, but 
part of the justification for not penalizing that person was 
that, oh, everybody did it. Really, is that the defense, Mr. 
Dougherty, that this was so common that you all searched Mr. 
Cummings' records and mine or Mr. Gowdy's, that since everybody 
did it, it was--didn't deserve to be punishable?
    Mr. Dougherty. So, Mr. Mulvaney, first of all, let me 
correct the record.
    Mr. Mulvaney. Okay. Please.
    Mr. Dougherty. Secret Service individuals, employees, 
cannot access those records now. They are limited. That's one 
of the things that we did do change over the last----
    Mr. Mulvaney. Do you disagree, Mr. Roth, or are you guys 
just using different terms for different things?
    Mr. Dougherty. We're talking about what is in existence now 
versus what it was when they actually looked at us. But we 
have, in fact, looked at this issue.
    Mr. Mulvaney. Mr. Roth, yes, no, maybe?
    Mr. Roth. That's certainly not our information at the time 
we did the audit. When you looked at the five different data 
systems, for example, Chairman Chaffetz's information was in 
two different systems. It was in the personnel system and the--
--
    Mr. Mulvaney. When was your audit, Mr. Roth?
    Mr. Roth. I'm sorry?
    Mr. Mulvaney. When was your audit?
    Mr. Roth. I think our field work was done, completed at the 
beginning of 2016. I don't have the exact date.
    Mr. Mulvaney. You're saying you fixed it since then, Mr. 
Dougherty?
    General Nally. Can I? May I address that, sir?
    Mr. Dougherty. That's correct. Let me refer to my colleague 
here, Mr. Mulvaney.
    Mr. Mulvaney. Sure. If it's been fixed, that's good news 
and we can move on.
    General Nally. It's been fixed.
    Mr. Mulvaney. Okay. Mr. Roth, do you mind taking another 
look at that again?
    General Nally. I can expound upon that if you'd like.
    Mr. Roth. Certainly as part of our audit process, what we 
do is every 90 days we take a look at what progress they've 
made and we'll report on that.
    Mr. Mulvaney. Well, if that's one thing that comes from the 
hearing, that at least this can't happen again, maybe that's 
good news. I wish we could talk more about what your agents are 
going through, all of them, because it sounds like something 
that would universally frustrate all of us up here. We'd like 
to help, but, unfortunately, we've got other stuff to deal with 
as well.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I'll recognize the gentleman from Missouri, Mr. Clay, for 5 
minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    As we discuss what Congress can do to improve staffing at 
the Secret Service, we should understand how Congress helped 
create the crisis in the first place. Last year, the chairman, 
myself, and all members of this committee approved a bipartisan 
report that found the Secret Service was experiencing a 
staffing crisis, and one of the three main causes was, quote, 
``significant cuts imposed by the Budget Control Act of 2011,'' 
otherwise known as sequestration.
    Mr. Dougherty, you were at the Secret Service when 
sequestration took effect. Do you recall seeing how that 
impacted the agency?
    Mr. Dougherty. Congressman Clay, thank you very much for 
that question. It was a perfect storm for the Secret Service to 
find ourselves in that, and it contributed significantly to the 
rapid decline in our funding and our budgeting for personnel, 
and, frankly, we're still digging our way out of that hole.
    Mr. Clay. Wow. The Secret Service rapidly lost 500 
employees between 2011 and 2013. During those 3 years, the 
committee's report found, quote, ``Congress approved $165 
million less than the combined amount requested by the 
President for the USSS.''
    Mr. Dougherty, do you recall how senior leadership reacted 
to those budget cuts at the time and how they handled the 
shortfall?
    Mr. Dougherty. I don't recall the exact numbers, but I do 
recall that the management response was effectively to sort of 
to pick people and programs and sort of just balance it so that 
protection was not impacted and people were not impacted, as 
little as possible. It was really effectively a very hard 
choice and one in which we tried to manage as much as we 
possibly could.
    We are also, though, I might add, sort of leaning forward, 
managing out of it. We are attempting to sort of manage out of 
it. And funding is, in fact, a very important commodity, a 
component to this particular issue.
    Mr. Clay. Given the cuts, can you think of a way the Secret 
Service could have avoided significant decreases in staff?
    Mr. Dougherty. Would you repeat that question?
    Mr. Clay. Given the cuts that impacted your agency, can you 
think of a way the Secret Service could have avoided 
significant decreases in staff?
    Mr. Dougherty. We were in a place where our base funding 
for our agency was already low, we hit the wall, it was really 
a place where it was very difficult to sort of manage out of 
it. It really became a Hobson's choice, technology, people, 
programs, the whole like. So it ultimately became a very 
difficult thing for us to sort of get out.
    That's why we think that we are sort of starting to kind of 
move out of that and why we are hiring at such a rapid pace in 
order to make up the difference.
    Mr. Clay. So you are now trying to restore that staffing to 
a respectable level.
    Mr. Dougherty. Director Clancy has made that the priority 
of the agency, is to refresh and to bring people back in so 
that we can give our people our lives back.
    Mr. Clay. You know, one of the 29 recommendations in the 
committee's bipartisan report was, and I quote, ``Congress 
should ensure that the USSS has sufficient funds to restore 
staffing to required levels, and USSS should ensure that it has 
systems in place to achieve these goals.'' Permanently fixing 
the pay cap waiver issue should be the first step of many 
towards fulfilling this recommendation.
    Mr. Roth or Mr. O'Carroll, would you concur that Congress 
should ensure sufficient funding for Secret Service staffing? 
Mr. O'Carroll first.
    Mr. O'Carroll. Yes, Mr. Clay, we agree completely. 
Sufficient funding would take care of a lot of the morale 
issues and the other issues that they're experiencing.
    Mr. Clay. Mr. Roth.
    Mr. Roth. Yes. Certainly our findings have shown that this 
is going to require a sustained long-term commitment of both 
personnel and funds.
    Mr. Clay. And, Mr. Dougherty, has the Secret Service 
evaluated what levels of funding would be sufficient to restore 
staffing appropriately?
    Mr. Dougherty. We have, Congressman Clay. Whether it's the 
strategic human capital plan that we submitted to Capitol Hill 
last June or the very sort of other additional budgets that 
we've done or the discussions we've had with committee staff 
with respect to our quarterly evaluations, we continue to raise 
the issue about additional funding in order to pay for a 
mission-based budgeting process.
    Mr. Clay. And it's evident that Congress cannot slash the 
budget of the Secret Service without expecting serious 
consequences.
    And, Mr. Chair, my time is up.
    Chairman Chaffetz. Thank you.
    I'll now recognize myself for 5 minutes.
    Mr. Dougherty, what do you believe Congress does not have a 
right to see?
    Mr. Dougherty. I have full respect for the oversight and 
the constitutional duties of the Congress with respect to that, 
so I'm not sure exactly.
    Chairman Chaffetz. Is there anything that you believe the 
Congress should not be able to see?
    Mr. Dougherty. I believe that when we're going through a 
process of trying to figure out records, how we all can 
accommodate each other's sort of interest in making sure that 
Congress is able to do their oversight job fully, completely, 
and unhindered, and at the same time recognize to some extent 
some of the considerations, the interests that we have as an 
agency, particularly since we owe our people some privacy.
    Mr. Gowdy. Would the gentleman yield?
    Chairman Chaffetz. The gentleman from South Carolina.
    Mr. Gowdy. Would you agree Congress created the whole 
inspector general apparatus? That's not constitutional in 
nature, it's statutory, right?
    Mr. Dougherty. I would agree that Congress not only 
established the IG, they established the United States Secret 
Service in 1865.
    Mr. Gowdy. All right. Good point. We did both. So Congress, 
if they wanted to, could do away with all the inspector 
generals' next appropriations process if they wanted to. They 
don't, but they could, right?
    Mr. Dougherty. I understand.
    Mr. Gowdy. So why would Congress have to wait until an 
inspector general concludes an investigation before Congress 
can get in line to gain access to information?
    Mr. Dougherty. What information are we talking about 
Representative Gowdy?
    Mr. Gowdy. Any information. It is routine for people to sit 
at that table and say: We cannot cooperation with an ongoing 
congressional investigation because there's an ongoing 
inspector general investigation. It is routine for that to come 
from witnesses at that table.
    Mr. Dougherty. The information under both the February 2015 
letter and the June 2015 subpoena has been substantially 
complied with but for one document production, and also the 
ultimate issue on names.
    Chairman Chaffetz. Why not complete production under the 
subpoena as opposed to substantial? Why do you get to make that 
determination?
    Mr. Dougherty. I'm not making that determination. What I've 
saying is basically----
    Chairman Chaffetz. The Secret Service--has the Secret 
Service fully complied with the duly issued subpoena from 
Congress?
    Mr. Dougherty. We continue to owe you materials. We have 
been doing production.
    Chairman Chaffetz. When are we going to get it?
    Mr. Dougherty. Well, first of all, it's been the committee 
that basically inserted additional document requests that they 
prioritized over this.
    Chairman Chaffetz. No, no, no, no. It was issued in June, I 
believe.
    Mr. Dougherty. It was issued February and June, yes.
    Chairman Chaffetz. Okay. So why have you not fully complied 
with it?
    Mr. Dougherty. It's tens of thousands of documents. We are 
relatively one document production away.
    Chairman Chaffetz. No, you are taking extra time and work. 
I'll give you an example here. In this particular document, 
just on page 4 alone, there's 21 redactions.
    Mr. Dougherty. I don't know which document you're referring 
to, Chairman.
    Chairman Chaffetz. All right. We tried to do this--this is 
the Bartlett file.
    Why do we get redacted documents?
    Mr. Dougherty. I have not seen that document, so I can't 
refer to that document.
    Chairman Chaffetz. Go ahead. I'll show you a copy of it.
    Deliver it to him.
    Mr. Dougherty. What I'm saying, Chairman, is----
    Chairman Chaffetz. Why should I get any redacted documents? 
To my original question, what is it that Congress should not be 
able to see?
    Mr. Dougherty. So even on Wednesday and Thursday of last 
week, I was sitting down with committee staff to try and 
resolve this issue.
    Chairman Chaffetz. I don't--you don't want to go there, Mr. 
Dougherty, you do not want to go there. I want the documents. 
We have a duly issued subpoena, and I expect you to fulfill it 
without redactions. If you think there's a justification for 
redaction, tell me now.
    Mr. Dougherty. So the anonymous document--the anonymized 
document that we gave you, which lays out sort of all the 
various sort of categories of information about these 
particular files, and we gave that to you yesterday, we thought 
that that would help you be able to sort of parse out and 
target what particular files you particularly want to discuss 
in more fully in an informed way.
    Chairman Chaffetz. You are making decisions that you should 
not make. When I issue a subpoena, you should fully comply with 
it. It's not optional. You don't get to parse it out and hide 
things.
    When you have 79 percent of the Secret Service saying that 
your senior-most leadership is not honest and trustworthy, we 
have a problem and we're going to go peek under the hood. When 
you have more than 10 percent of your level 15, GS-15 and above 
who have problematic backgrounds in that they've had to go 
through investigations of themselves since they've been agents, 
you have a problem.
    When you hand us a document with nearly 30 people and only 
1 of them says it's unsubstantiated, we have a problem. When 
you have Cartagena happen and there are eight incidents since 
Cartagena, and then they continue to get promoted, at least I 
think it's five of them continue to get promoted, we have a 
problem. We get to do an investigation.
    So to my original question, what is it you think Congress 
has no right to see?
    Mr. Dougherty. Chairman, we're trying to basically sort of 
lean forward, and I'm looking at the list----
    Chairman Chaffetz. My simple question is, are you or are 
you not going to comply with the subpoena?
    Mr. Dougherty. That is why we are having a discussion with 
staff----
    Chairman Chaffetz. I don't want to have a discussion 
anymore. We've been talking about it for nearly a year. I want 
the documents. Are you or are you not going to provide them?
    Mr. Dougherty. And there was discussion on the table in 
which to accommodate that. But the list that we gave you----
    Chairman Chaffetz. You really want to have--you want to 
talk about the discussion that you proposed?
    Mr. Gowdy. Would the chairman yield for a moment?
    Chairman Chaffetz. Yes.
    Mr. Gowdy. Just humor me and give me an idea what those 
discussions would be about. What privilege are you asserting 
that would prevent you from making information available to the 
entity that created your department, your agency?
    Mr. Dougherty. So I'm not standing here in a position as an 
attorney here because I've not served in that role at the 
Secret Service in a very long time.
    Mr. Gowdy. That's okay. You don't have to be an attorney to 
know why you're not turning stuff over.
    Mr. Dougherty. I'm not asserting a privilege, Mr. Gowdy.
    Mr. Gowdy. Well, if it's not a privilege----
    Mr. Dougherty. What I'm doing is having a practical 
discussion about the information that is--that furthers and 
advances the committee's oversight and effectively bringing us 
to a positive place.
    Mr. Gowdy. Right. But I want you to hear those words from 
our standpoint. Let me tell you what I hear when I hear you say 
that: We're going to decide what we think you need.
    Mr. Dougherty. And that's not the case.
    Mr. Gowdy. That's what you just said, that advances the 
committee's work. We may get to decide what advances our work. 
Would you give redacted documents if it were a grand jury 
subpoena or a court subpoena? If that branch of government 
sought documents, would you go through and redact them before 
you gave them to a judge?
    Mr. Dougherty. I think that's a good example, but I'll take 
a different example, that is, in terms of normal discovery. 
Oftentimes, courts will say we're----
    Mr. Gowdy. Oh, please tell me you are not treating Congress 
like a criminal defense attorney. I am begging you to please 
tell me that's not what you're doing.
    Mr. Dougherty. I'm not, Mr. Gowdy. What I'm saying is 
basically the discussions that we had as late as last week I 
thought were going towards a creative resolution to this 
particular issue which ultimately was going to give the 
committee the place where they wanted to be on this.
    Mr. Gowdy. Well, what I hear the chairman saying----
    Mr. Dougherty. And I think in time we would have been able 
to get there.
    Mr. Gowdy. What I hear the chairman saying is the place he 
wants to be is exactly what he asked for. Hence, there really 
is no more need for negotiation. Unless you have a legal 
privilege or some constitutional precept you are standing on to 
not allow the branch that created your agency to see documents, 
then what is the discussion about?
    Mr. Dougherty. The discussion is about ultimately what is 
fair to individuals as well. Look, if you have a child come 
home where basically they do a fender bender, you basically 
sort of put them in a timeout or whatever, and then you 
ultimately give them the keys back.
    This is exactly the same situation. We have individuals who 
have engaged in misconduct, but it doesn't mean necessarily 
that's the end of their career. They basically continue togo 
forward, just like we treat our children. That's basically what 
we're talking about.
    Mr. Gowdy. Well, don't you think the father of three would 
be able to appreciate that analogy? Then why can't you give us 
the documents and then make the analogy?
    Chairman Chaffetz. Let me recognize the ranking member, Mr. 
Cummings.
    Mr. Cummings. I just want to make sure we don't keep--it 
seems like we're going in a little circle here, and I want to 
get us off from the circle. Who makes the decisions with regard 
to the redactions?
    We're all concerned about Congress being able to do its 
job, and to do its job, we need information. But who makes--you 
know, when you said you're not a lawyer, you know, I know a lot 
of people have a lot of--against lawyers, but we do--we have 
been provided with special skills and information that a lot of 
people don't have. So you're not a lawyer. Is that right?
    Mr. Dougherty. I'm a lawyer.
    Mr. Cummings. You are?
    Mr. Dougherty. I am, yes.
    Mr. Cummings. Okay. And so tell me who makes these 
decisions with regard to redactions?
    Mr. Dougherty. It's a combination of decision with----
    Mr. Cummings. Do you make them?
    Mr. Dougherty. I do not, and that's not the role that I 
have played in, sir. I actually came here to talk about PMP and 
the HOGR Committee report and not this, because this is an area 
that I've not been involved in up till now. I don't play an 
official role in this. I played an official role in building up 
the new integrity system and the new table of penalties, but 
not the old disciplinary system that we had before.
    Mr. Cummings. So who can we talk to, to get the--you don't 
sound like you're the right person to be asking these 
questions. Who should we talk to, to get the answers to the 
questions?
    Mr. Dougherty. This is a joint decision of the Department.
    Mr. Cummings. This is legal counsel for the Secret Service 
and legal counsel for DHS?
    Mr. Dougherty. Legal plays a very large role in the 
decisionmaking, yes, sir.
    Mr. Cummings. All right.
    Chairman Chaffetz. I've got to conclude here with this line 
of questioning here to tell you how highly offended--offensive 
it is, you comparing this to a fender bender, okay. When you 
have 79 percent of your employees saying that they don't 
believe the senior management is acting honestly, don't tell me 
it's some fender bender. This so-called employee number 5, an 
SES-level employee transmitted hardcore pornography materials 
along with racially charged and sexist conduct, and yet he only 
received a written reprimand.
    You have another. Here's an email I'm going to read to you, 
as best I can, and sorry for the nature of this. This is, 
``Subject: A very talented woman.'' And remember, this is on 
government computers between employees.
    ``Now this''--uses the ``B'' word--``has some talent. 
Careful where you open, there's definitely adult material.'' 
And then it goes on. But you redacted all this. I can't tell if 
you're actually taking the appropriate disciplinary process.
    And don't tell me this is some innocent fender bender where 
we didn't take away the keys the right way. Get serious, Mr. 
Dougherty, this is serious stuff. And if we can't trust the 
senior-most people in the Secret Service, you're right, they're 
going to have to lose their keys to the kingdom.
    And I don't think you're taking the appropriate 
disciplinary action, but I want to find out. I want to know. I 
want to look at those files. And guess what, that's the way the 
Congress is set up.
    And when you have more than 10 percent of your SES 
employees 15 and above that fall into this category, you have a 
very serious problem. I could go on and on about the serious 
nature. And when you send me a spreadsheet with 30 and none of 
them are--only one of them says it's unsubstantiated, we have 
the right and the duty and the obligation to look at it. That's 
what oversight is all about. This committee was formed in 1814. 
Abraham Lincoln served on this committee, for goodness sake.
    So unless you have some legal authority, you are putting us 
in a position that nobody wants to be in. We don't want to have 
to hold you in contempt. You should cooperate.
    And of all the things out there, Homeland Security, Secret 
Service should know. You wouldn't put up with this. If you were 
investigating somebody else and you had a subpoena and you 
served it on them and they said, ``Give me a moment, I've got 
to cross out a few things because I just want to make it fair, 
I just want to cross these things out so that, you know, I want 
to make sure that you get what you need,'' are you kidding me? 
That is not the way this process works.
    You have a duly issued subpoena. I expect you to comply 
with it. When will you give me an answer as to whether or not 
you're going to comply with the subpoena in its totality, not 
in negotiation, in its totality? When will I have that answer?
    Mr. Dougherty. Chairman Chaffetz, I'm not in a position to 
tell you that.
    Chairman Chaffetz. You knew this question was coming. We 
told you in advance it's coming. When is it reasonable for me 
to have answer to this question?
    Mr. Dougherty. I think we are working very hard on that, at 
the latter part of last week, and hopefully we can get to a 
place----
    Chairman Chaffetz. Give me a date.
    Mr. Dougherty. I cannot give you a date, Chairman Chaffetz. 
I'm not the decisionmaker here.
    Chairman Chaffetz. Who's the--going back to what Mr. 
Cummings says. Give me specific names. Who advised you on this 
question? Who?
    Mr. Dougherty. Well, it's ultimately----
    Chairman Chaffetz. No, I want to know specifically who did 
you have a discussion about this with? You're under oath. Give 
me the answer.
    Mr. Dougherty. With respect to multiple individuals.
    Chairman Chaffetz. Go ahead. List them out. I've got time. 
Go ahead.
    Mr. Dougherty. Director Clancy, a number of other 
individuals.
    Chairman Chaffetz. No, no, name the individuals. You're a 
smart man. You know these people's names. Name them.
    Mr. Dougherty. The gentleman directly behind me, Mr. 
Paramore. Our counsel, Donna Cahill. Those are the individuals.
    Chairman Chaffetz. Those three, nobody else?
    Mr. Dougherty. That's what I recall.
    Chairman Chaffetz. Any other? I'll give you one more 
chance. Anybody else advise you on how to----
    Mr. Dougherty. I do not recall, Chairman.
    Chairman Chaffetz. Okay.
    Mr. Dougherty. This has been a multipronged discussion, and 
I've had multipronged discussions with your staff on this issue 
to try and sort of find a way forward.
    Chairman Chaffetz. Okay. It's not acceptable. We shouldn't 
have to wait this long. We're trying to do our jobs, and we're 
trying to help you to do your jobs, but it requires 
cooperation. And when I have to get to the point where I have 
to issue a subpoena, I expect compliance, 100 percent 
compliance. Understood?
    Mr. Dougherty. Understood.
    Chairman Chaffetz. We'll now recognize the gentleman from 
Wisconsin, Mr. Grothman, for 5 minutes.
    Mr. Grothman. Yeah. Kind of disturbing testimony. I think 
we can kind of see why 79 percent say leadership is not honest 
and trustworthy.
    But in any event, a question for Mr. Roth. Before, the 
topic of compensation came up. What is the base compensation 
for the different Secret Service levels or officers?
    Mr. Roth. I would not have that information.
    Mr. Grothman. Does Mr. O'Carroll have that information?
    Mr. O'Carroll. No, Mr. Grothman.
    Mr. Grothman. Does any of the other guys have that 
information?
    Mr. Dougherty. That's on the OPM sort of, you know, general 
schedule Web site. Basically you can find it there, and we can 
certainly provide that information to you.
    Mr. Grothman. Yeah, I know. But do you have any idea what 
people make? Like, if I'm a Secret Service agent for 15 years, 
what am I making? Nobody knows?
    Mr. Dougherty. Approximately $145,000 base pay.
    Mr. Grothman. Okay, 145,000----
    Mr. Dougherty. A lot of hours for a little bit of pay.
    Mr. Grothman. Okay. And so if the Secret Service--are they 
getting overtime then above that?
    Mr. Dougherty. They are for protection.
    Mr. Grothman. Okay. So if I work 41 hours a week, I'm 
getting more than 145,000?
    Mr. Dougherty. They would receive overtime for protection. 
They also receive leave pay, which effectively is law 
enforcement availability pay. That's an additional 2 hours, but 
that's beyond overtime.
    Mr. Grothman. I guess there's some feeling that we're not 
paying enough here. And maybe I'll ask Mr. O'Carroll. I mean, 
to me, these are professional jobs, right? Don't you think 
they're kind of professional jobs?
    Mr. O'Carroll. Yes, sir.
    Mr. Grothman. I mean, to me, anywhere in the world, if 
you're making 145 grand, that's not a 40-hour-a-week job, 
right? If I'm making 145 grand, I expect, I don't know, 45, 50, 
55 hours a week, right, don't you think?
    Mr. O'Carroll. Agreed. But as you notice from my testimony 
at the beginning, is most of the agents in the campaign, you're 
working 16-hour days. So they are putting more than a 40-hour 
workweek.
    Mr. Grothman. I know, but the question is, and I would 
think this is particularly if you're doing the Presidential or 
Presidential candidate detail, almost an honor, I guess it 
surprises me that if you're making 145 grand a year, that on 
your compensation, if you're working 45 hours a week, you're 
expecting overtime. You see what I'm say something?
    I mean, normally, you know, people who work for me, my 
chief of staff, my deputy chief of staff, I mean, they're not 
making that much, but they work more than 40 hours a week. I 
work well over 40 hours a week because, but they pay us pretty 
well for that.
    I just am a little bit surprised that as a Secret Service 
agent, if you're working 45 hours a week, you think that's 
overtime or additional pay. You think that's right?
    Mr. O'Carroll. Well, a couple of things on it just for 
clarification. One, they are getting paid for some of that 
overtime with that law enforcement availability pay. So, yes, 
as we said, that above that $140,000 there would be some 
overtime, that's automatically included.
    And what we were bringing up, or one of our concerns of our 
members is, is that it's capping out at the 15 step 10 level, 
which is about 160,000. So technically, any agent after that, 
with the caps on it, are working for free, and that was my 
concern. So, again, we're kind of dealing with that----
    Mr. Grothman. What I'm saying is, if you get up around 150, 
you're expected to work more. I mean, that's what well-paid 
people do.
    Mr. O'Carroll. Yeah.
    Mr. Grothman. Now, just a general question for Mr. 
Dougherty. That 79 percent say leadership is not honest and 
trustworthy, you want to comment on that? Why do you think 
people are answering the questionnaire that way? Why do you 
think that your agents think you're not honest and trustworthy 
to that degree? I mean, that's just stunning. Could you give me 
an opinion as to what's going on in their mind, in your 
opinion?
    Mr. Dougherty. I'm not sure when that particular survey or 
number was established. Do recognize that we have had multiple 
surveys and other things that basically sort of go to the issue 
of confidence in leadership. I do think, though, that the 
change of leadership with Director Clancy, keeping in mind that 
he changed every single assistant director but for one 
individual, and also, too, recreated the agency, that there has 
been substantial changes in terms of that and the kinds of 
things that we're trying to respond to.
    Mr. Grothman. Why do you think in the past such a high 
percentage thought leadership was so bad? What bad things were 
they doing?
    Mr. Dougherty. Well, I think that, first of all, the old 
disciplinary process that we had basically contributed to that, 
because effectively it was not very transparent, it wasn't 
consistent, and it wasn't fair.
    Mr. Grothman. Okay.
    Mr. Dougherty. They had different decisionmakers basically 
making those decisions.
    Mr. Grothman. I cut you off. I'll ask the same question to 
Mr. Roth. I'm almost out of my time.
    Mr. Roth. It's difficult to know. Certainly those 
questions, the answer to those questions have been consistent 
over time. One of the things that we talk about when we talk 
about an ethical culture is to have a tone at the top, the 
right kind of tone at the top, having systems in place to 
enforce that culture, and then actually doing something about 
it.
    So in relation, for example, to the discipline that was 
imposed on the individuals that accessed, in violation of the 
Privacy Act, Chairman Chaffetz's records, I think that 
discipline was inadequate, and I think it's perceived of as a 
dual standard.
    Mr. Grothman. Okay. I just want--well, in my life, I'm 
trying to go back in my life, all the bosses I've had, if I 
ever felt anybody was untrustworthy and not honest, and I 
really can't think of any of my bosses I felt that way about. 
So when you have that many think that poorly about the people 
who run the Secret Service, it's kind of scary. But I've run 
out of my time, so thank you.
    Chairman Chaffetz. I thank the gentleman.
    I'll now recognize the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. Great to be back.
    Mr. Roth, why does anybody in the Secret Service need 
overtime?
    Mr. Roth. We haven't looked at that, Congressman. I'm not 
sure what you're getting at. It's not part of our audit 
reports.
    Mr. Connolly. Well, I mean, if you had a full workforce 
with fully staffed shifts, in theory, ideally, you'd never need 
overtime. Isn't that correct?
    Mr. Roth. Understood. Correct. There had not been a 
staffing plan that had been established previous to just 
recently. So essentially, the Secret Service was understaffed, 
forcing people to work overtime, eliminating training that was 
necessary for them to do their jobs.
    Mr. Connolly. Okay.
    Mr. Roth. So that's why they needed the overtime.
    Mr. Connolly. And how pervasive of a problem is that, that 
understaffing that requires more and more overtime?
    Mr. Roth. It is significant. As we talked about when we 
looked at the PMP report, certainly in 2015 they had 6,350 
people on board. The estimate was that they needed 7,600 people 
on board, so about 1,300 more individuals, to have the kind of 
staffing that would minimize, although not eliminate overtime, 
because that's the nature of law enforcement, that there's 
always overtime, but also allow for adequate training.
    Mr. Connolly. So the fact that we're, if we'll stipulate 
your numbers, we're 1,300 understaffed, that's a lot. That's 
about 20-something percent of the ideal workforce, right?
    Mr. Roth. Correct. And, again, what I'm talking about is 
numbers from 2015.
    Mr. Connolly. No, I understand.
    Mr. Roth. It has gone up since.
    Mr. Connolly. Right.
    Mr. Roth. Yes, it is significant.
    Mr. Connolly. So the Secret Service has to fall back on 
overtime if it's going to carry out its duties.
    Mr. Roth. Precisely.
    Mr. Connolly. And if it doesn't do that, if it actually 
just keeps people to their shift, no overtime, what's the risk?
    Mr. Roth. Well, obviously, it's a risk of mission failure.
    Mr. Connolly. And does that put lives in jeopardy?
    Mr. Roth. It absolutely does.
    Mr. Connolly. Because this isn't just any mission.
    Mr. Roth. That's correct.
    Mr. Connolly. And, of course, in an election year, the 
demands on the Secret Service are that much greater.
    Mr. Roth. Correct.
    Mr. Connolly. Especially this one maybe. That's my 
editorial comment; you don't have to comment.
    All right. So Congress certainly has recognized this 
problem, right, and rushed to fill in the gap and make sure 
that you had either the overtime you need and/or the staffing 
you need so that this sacred mission is not compromised and 
nobody is at risk. Is that not what's happened, Mr. Dougherty?
    Mr. Dougherty. Congressman Connolly, first of all, if I can 
at least observe that the law provides for the payment of 
overtime for Secret Service agents as well as other law 
enforcement. Really, the issue that we're talking about just 
simply is the cap to the law that Congress has established 
relative to payment of compensation for law enforcement.
    Having said that, I totally agree with you, though, that 
really the resolution to the problem, of course, in trying to 
make sure that the Service can continue to do its mission is 
both funding and also to the law, sort of a recognition that at 
least that we have a unique mission which requires an awful lot 
of hours by individuals to sort of continue to do what they're 
doing.
    Mr. Connolly. Yes. Mr. Dougherty, my time is running out 
and I was going to get to the point you brought up, and thank 
you for bringing it up.
    So this pay cap Congress has imposed. Is that correct?
    Mr. Dougherty. Actually, I think we are excited at the idea 
that the committee effectively has sponsored legislation----
    Mr. Connolly. Not my question, Mr. Dougherty. Is there a 
pay cap or not on overtime, absent other legislative action?
    Mr. Dougherty. You are correct, sir.
    Mr. Connolly. Yes. And does that pay cap in any way affect 
performance or morale of Secret Service agents who are doing 
their duty and putting in the overtime, whether they're getting 
paid--whether there's a pay cap or not? Is that not correct?
    Mr. Dougherty. I think that's the nub of the question.
    Mr. Connolly. Yes.
    Mr. Dougherty. And I believe, sir, that the answer is yes, 
that when you ask individuals--it's one thing to ask an 
individual to go and do their job. It's another thing, though, 
to say, do your job and, by the way, at this point in time in 
your workweek you're not getting compensated any further.
    I believe that this is simply an unintended consequence to 
the way that Congress sort of struck the ceiling or the cap, 
not taking into consideration the specialized missions that 
certain organizations have. And the Secret Service's, I think, 
is a unique one with respect to that, particularly given the 
recurring sort of nature of the campaign. Every 4 years we kind 
of run into this. This was not a problem that just existed in 
2016; it has been a problem that's been in existence going back 
to multiple campaigns.
    Mr. Connolly. Yes. I take your point. And my time is up. 
But I would simply say, we hear a lot about, you know, we ought 
to run government like a business. I don't know any business 
that would say to its employees, we're going to set, you know, 
virtually limitless hours for you to work and we're only going 
to compensate you for part of that. And I just think we in 
Congress have a responsibility to revisit that issue and 
address it in a responsible way so that the Secret Service is 
adequately compensated and your mission is successful.
    Thank you, Mr. Chairman.
    Mr. Dougherty. Thank you, Congressman Connolly. Thank you 
very much.
    Chairman Chaffetz. I thank the gentleman.
    I'll recognize the gentleman from Alabama, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Dougherty, are you aware that in the list of best 
places to work in the Federal Government in 2015 that Secret 
Service ranks 319th out of 320?
    Mr. Dougherty. I am aware of that.
    Mr. Palmer. Did it ever occur to you that there might be a 
connection between the fact that 79 percent of the rank and 
file that work for the Secret Service, the men and women in 
uniform and in the protective detail, that that might have 
something to do with that low ranking?
    Mr. Dougherty. That ranking is connected to a lot of 
things.
    Mr. Palmer. Well, I can assure you that when 79 percent 
don't trust leadership, it's going to be reflected in your 
ranking.
    And I'm sitting here listening to this and listening to you 
guys talk about the overtime. And we had a hearing back in 
March of 2015, and it turns out that in that hearing we found 
out that the uniformed officers were now getting only, like, 25 
minutes of training and that your protection detail had 
previously been spending 25 percent of their on-duty time in 
training. It's now down to 2 percent. And then you're working 
these hours. I think Mr. Thomas Perrelli in a February hearing 
indicated maybe 58 hours. So you're working these people, and 
then you're providing them, in my opinion, untrustworthy 
leadership.
    And I just want to bring up something here, and going back 
to Mr. Gowdy's questions. Assistant Director Edward Lowery, who 
was recently promoted to that, does he have a misconduct 
citation in his record?
    Mr. Dougherty. Again, I serve as the chief strategy officer 
for the Secret Service. I'm not involved in the disciplinary 
process. I cannot answer that question.
    Mr. Palmer. I'm not asking you if you were involved in 
discipline. I'm asking you a direct question. It's a yes or no, 
or you can say you don't know.
    Mr. Dougherty. I don't know.
    Mr. Palmer. Okay. You know, he is the one who sent out an 
email that said that there is some information that he might 
find embarrassing that needs to get out. The ``he'' he was 
referring to is Mr. Chaffetz, Chairman Chaffetz.
    There's 10 new assistant directors that have been promoted. 
I've got a list here. Forty-one alleged misconduct or people 
charged with misconduct. How many of the 10 new assistant 
directors do you think might be on this list? Could you answer 
that for me?
    Mr. Dougherty. I cannot.
    Mr. Palmer. Could you find out and let us know?
    Mr. Dougherty. Yes.
    Mr. Palmer. I appreciate that. Would you also let us know 
if Mr. Lowery is one of those?
    Mr. Dougherty. Yes.
    Mr. Palmer. Nodding your head I take is an affirmative. 
Thank you.
    I also would like to point out that this appears to be 
problematic in the Department of Homeland Security, because 
among the large agencies Homeland Security ranks last, and they 
ranked last in 2014 and 2015. And I just think this is 
indicative, Mr. Chairman, of a major issue with management.
    And, again, going back to the fact that 79 percent say that 
they find management not, you know, that they're not honest and 
not trustworthy, makes it look like management is more 
interested in protecting management than they are looking out 
for the men and women who are putting their lives on the line.
    And you're wearing them out. I can tell you as a former 
athlete that--and particularly in football--when you got in the 
fourth quarter fatigue would make a difference. I don't care--
and you've reduced their training down to such low levels that 
you combine that with fatigue and you're looking for a 
disaster. And then on top of that, you operate the agency in 
such a way that really is reprehensible. I've heard that word 
used once before.
    I mean, what are you going to do? Are you going to continue 
to protect management? Are you going to continue to deny the 
committee the documents that we've requested? Because our 
objective is not necessarily to get anyone. Our objective is to 
restore the credibility and reputation of the Secret Service so 
that the men and women who serve the Secret Service can do 
their job, can get paid what they should get paid, and can get 
home safe. Is that too much to ask?
    Mr. Dougherty. I appreciate the sports analogy, because I 
use them all the time.
    Frankly, that's why we're coming here and doing the 
quarterly updates, to show you the things that we're doing. And 
yes, we have been talking to the committee to basically sort of 
resolve this ultimate issue about the records.
    Mr. Palmer. The chairman has pointed out that we've made 
multiple requests. We've subpoenaed the documents that we think 
are important to getting the Secret Service back to the level 
of expertise and credibility that they've enjoyed for their 
entire existence, but you've denied us those documents. We've 
got cases here where there's misconduct that's gone really 
unpunished. And if you want to restore your rank and file's 
confidence in the agency, you need to work with us.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I'll recognize myself for a series of questions as we 
conclude this hearing.
    Inspector General Roth thought we were roughly 1,300 people 
short of where we need to be right now. Mr. Dougherty, is that 
your understanding? Is 1,300 how many we're short?
    Mr. Dougherty. I'm not following exactly where he gets the 
number 1,300. I can tell you sort of what we've plotted out 
through our strategic human capital plan effectively. If you're 
going to get ourselves back to the 7,024 or you're going to get 
us to the number 8,300 effective, which we've plotted out all 
those numbers, we have tried to assess through new models for 
personnel where we think we ought to be.
    Chairman Chaffetz. And I appreciate that and we want you to 
share that in its totality with the committee. What I'm trying 
to understand is how far short of those goals as you plot it 
moving forward, much to what Mr. Lynch put up on the chart 
which was part of our graph. How far short are we? And if you 
can't answer right off the cuff----
    Mr. Dougherty. I can't answer right off, but I would be 
glad to provide that information and number to you.
    Mr. Dougherty. I think it does, though, tie, though, to the 
plan that we have given to the Congress in June of 2015. And we 
continue to update our strategic human capital plan, and we're 
having our models revalidated by an outside contractor to make 
sure that we are in the right place on that as well.
    Chairman Chaffetz. It is something of keen interest--Mr. 
Cummings referred to it, so many of us have referred to it--is 
how many we're short. I liken this to a bathtub. You know, you 
try to keep filling it up in the top, but the drain at the 
bottom, the attrition is so great. And until you get ahead of 
that curve, you can't get people with reasonable lives. We want 
them to have a personal life. We want them to be able to do 
these things.
    And we recognize the surge that happens during a 
Presidential campaign, but what we also see is that, according 
to the numbers you've given us, agents only spend about a third 
of their time on protective-related activities during non-
Presidential years and just barely over half their time during 
Presidential years.
    So if you're spending 50 percent to two-thirds of their 
time on activities outside of the protective mission, it does 
beg the question that I will continue to pursue, which is, 
should we shed off all the things that you're supposed to be 
doing as it relates to cyber and cyber defenses? Because look 
at the irony here. We're hearing reports from the inspector 
general you don't even have the basic systems in place to deal 
with some of the most basic things we have.
    Mr. Nally, you said something. You said, quote, ``All this 
has been rectified.'' I want to give you a chance to help 
clarify that, because I have pictures of your office where 
somebody emails in their application. It's printed out. It's 
stacked up in the hallway, not in a secure setting. It's behind 
a locked door, but certainly not in a secure setting. And then 
you retype it in?
    How arcane, how bad is the personnel system, both in terms 
of hiring and tracking current employees? Are you where you 
want to be?
    General Nally. Mr. Chairman, I'll never be where I want to 
be.
    Chairman Chaffetz. Okay. Where are you at now? I mean, 
okay, great. That's a philosophical thing. But where are you 
at? If I pulled out somebody's name, I pulled out Jane Doe out 
of the file and I said, show me employee number 1,233, could 
you tell me how many hours she's worked?
    No, no, I want to ask Mr. Nally. He's the CIO.
    Could you tell me that?
    General Nally. I don't know, because I don't have access to 
that system.
    Chairman Chaffetz. Can the system pull up that information? 
Does the system track personnel's hours worked?
    Mr. Dougherty. Chairman Chaffetz, I run that part of the 
Secret Service.
    Chairman Chaffetz. Okay. Go ahead.
    Mr. Dougherty. The answer is yes. And we have provided to 
the committee staff our annual performance statistics. I'll be 
glad to provide them again.
    Chairman Chaffetz. But can you, by the personnel--if I took 
a random sampling, if Mr. Roth came in here and took a random 
sample of the personnel, could he tell me that Jane Doe worked 
this many hours?
    Mr. Dougherty. I believe that we can.
    Chairman Chaffetz. Mr. Roth, is that something you can do 
in short order? Can we take a random sampling and track these 
employees? I mean, when you get into an SES employee or a GS-15 
employee, can you track that?
    Mr. Roth. We don't know. I'd have to check with my folks to 
see if that's doable.
    Chairman Chaffetz. So here's the problem. I've sponsored a 
bill to loosen up $22 million to pay people for the overtime 
they worked in just 2016, but I need some assurance that you're 
not just going to hand this out like candy and say, well, you 
get, you know, 20,000 and you get 15,000, unless there's some 
real metrics and some documentation that shows that this person 
worked 43 straight days at 13 hours a day.
    Mr. Dougherty. I know I can provide that data, and I can 
provide that assurance as to who's getting overtime and when 
they're getting it and how they're going to get it.
    Chairman Chaffetz. Okay.
    Mr. Dougherty. Again, we have those performance metrics. If 
we do anything right, we do a really good job of that, of sort 
of understanding. Besides, we pay these people and we have to 
have an understanding as to the hours that they worked.
    So I do think that we're in the right place on this. I'll 
be glad to provide any information to you to satisfy this 
inquiry.
    Chairman Chaffetz. Is there a scheduling system in place 
now so people can see where--and granted, protectees change 
where they're going to be at a moment's notice and I get that. 
But can agents have visibility on when they're projected to 
work over, say, the next 7 days?
    Mr. Dougherty. So that's--go ahead.
    General Nally. Excuse me.
    Mr. Chairman, we have a system that will be IOC, initial 
operational capable. It's called UD, Uniformed Division/RMS, 
Resource Management System, that will be IOC the first week in 
December. It's a modernized program that's taking the current 
scheduling system and automating it.
    For example, the agents and duty officers do have an 
application on their phone that we currently issue them and 
they use where they can put in for leave or, say, a sick day 
off, et cetera, that's an automated process. Come the first 
week in December, they're going to be able to have laid out a 
scheduling system for those officers. It's automated. It's an 
agile approach that we're using. We have UD officers involved 
in the process. And currently, this week out at the RTC we have 
user verification testing on that system.
    Chairman Chaffetz. Mr. Roth, I just would like--agents, 
officers, they need to be able to know when they're going to 
work. We heard this horror story last time. It was Wednesday 
before Thanksgiving, and they didn't know if they were working 
on Thanksgiving and what time. They said, I'm happy to work on 
Thanksgiving, just tell me if I've got to have breakfast with 
my family or dinner with my family, I can't see it. And I want 
to make sure that that is solved.
    Mr. Dougherty, do we have enough personnel? Do you need any 
assistance to help with the inauguration?
    Mr. Dougherty. I think you've seen the model or heard of 
the model before. The model for NSSEs is a really well-
developed model for the Secret Service. And that model has 
been, as we speak, has been already implemented.
    Chairman Chaffetz. All I'm asking on that topic, I just 
want the inspector general to go in and look at it and report 
back and tell us what he's found.
    Mr. Dougherty. And we are collaborating----
    Chairman Chaffetz. Okay.
    Mr. Dougherty. --with everybody that we need in order to--
--
    Chairman Chaffetz. That's all. That's all. I don't even 
need an answer from you on that. I want the inspector general 
to find out if that part is working. The application portion of 
it, the tracking of overtime, and the projection on when 
they're going to work in the future. Sort of the beginning, the 
middle, and the end. I just want him to come back to us and 
share with us his findings.
    Do you have enough personnel or do you need any assistance 
to successfully get us through this inauguration?
    Mr. Dougherty. Our normal model, basically, is to go and 
collaborate with as many people that we have to, whether it's 
State and local, other Federal law enforcement, DHS, of course. 
So I think the answer is yes, the model is there and the plan 
will be there.
    Chairman Chaffetz. And to the inspector general, the other 
thing I would like to get at is, again, we've highlighted this, 
but we're going to continue to highlight this. I do believe 
there's a very significant attrition problem. These are good, 
high-paying jobs, don't get me wrong here, but the amount of 
overtime is so excessive.
    We have to get to a point--and keep in mind the imperative 
here. It is amazing what they've done and what they will do. 
And this is where I want to conclude, with the same thing we 
started with. We cannot thank them enough, the men and women 
who are actually out there on the front lines doing this day in 
and day out.
    And I can't imagine, whether I was single or married or 
whatever, or had a loved one or just a mom and dad who cared 
about me or just somebody who's out there by themselves, 
looking at the calendar ahead and thinking, gosh, you know 
what, I got another 15 days in this month and I'm not going to 
get paid a dime, and continuing to do that. That's how 
dedicated these men and women are. I want to help solve that by 
loosening up $22 million so that we can give relief to almost 
everybody.
    But the long-term way to solve this is to get to the proper 
staffing levels. They'll do it, they'll work 15 hours a day. 
But you know what, when you're working 43 days straight, as the 
one example, and you're pulling 12-, 14-hour shifts, and you're 
sleeping in a different bed every night because the candidate's 
traveling all over the country or, you know, right now 
President Obama is off in Greece and traveling around the 
world, we need them to be able to do that.
    But you don't want an agent who's exhausted and tired and 
can't figure out how they're going to pay for the child care, 
because they're not even getting compensated and they're not 
there to help fix the door or the toilet or whatever it might 
be. We have to get to the proper staffing levels, and we want 
to help there.
    Mr. Nally, rather than saying all this has been rectified 
and that you will never be satisfied, all laudable things, two 
just bits or words of advice. Be honest and candid in terms of 
your assessment of your capabilities. And, number two, you need 
to share with us what you're trying to do and what impediments 
are in the way.
    The other thing I would lastly suggest is, it doesn't need 
to be all reinvented by yourselves. It's a large Federal 
Government. You're not the first one to run into a staffing 
shortage. The Office of Personnel Management should be the one 
to help agencies and departments figure this out.
    I worry that every time we look around somebody has got to 
come up with their own staffing software, you know. And law 
enforcement is different than how they're going to do it at, 
you know, the Bureau of Land Management, I get that.
    But, please, let's be smart in this and let's solve this 
problem, give these people some relief so they're fresh, 
they're satisfied, they're fully compensated.
    I thank you all for your expertise and your dedication and 
your patriotism. We have to get this mission right, and that's 
the spirit in which we have this hearing. So I thank you all 
for being here today.
    The committee stands adjourned.
    [Whereupon, at 1:06 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
